   THE STATUS OF ENTERPRISE
 ARCHITECTURE AND INFORMATION
    TECHNOLOGY INVESTMENT
MANAGEMENT IN THE DEPARTMENT OF
           JUSTICE

        U.S. Department of Justice
      Office of the Inspector General
               Audit Division

           Audit Report 06-02
            November 2005
            THE STATUS OF ENTERPRISE ARCHITECTURE
           AND INFORMATION TECHNOLOGY INVESTMENT
           MANAGEMENT IN THE DEPARTMENT OF JUSTICE

                       EXECUTIVE SUMMARY

       To more effectively manage its Information Technology (IT)
investments in compliance with legislation and regulations, the Department
of Justice (Department) is in the early stages of developing Enterprise
Architecture and Information Technology Investment Management (ITIM)
processes. An Enterprise Architecture is a strategic information asset base
that defines the organization’s mission, the information and technologies
necessary to perform the mission, and the transitional processes for
implementing new technologies in response to changing mission needs.
Enterprise Architectures provide explicit structural frames of reference that
allow an understanding of: (1) what the enterprise does; (2) when, where,
how, and why it does it; and (3) what it uses to do it. An ITIM process
enables an organization to manage its IT investments by continuous
identification, selection, control, life-cycle management, and evaluation.
This structured process provides a systematic method for agencies to
minimize risks while maximizing the return on its IT investments.

      We performed this audit to determine if the Department is effectively
managing its Enterprise Architecture and ITIM efforts. The Department’s IT
budget for fiscal year (FY) 2005 is $2.2 billion for 320 systems, including 22
major systems that cross-cut more than one organizational component of
the Department. The Department continues to face significant challenges in
ensuring that its IT systems are developed and deployed in a timely and
cost-effective manner. For example, IT systems planning and utilization is
one of the Department's top ten management challenges. Further, the
management of the Department’s IT investments has been a material
weakness since
FY 2002.

      Congress enacted the Information Technology Management Reform
Act of 1996 (known as the Clinger-Cohen Act) to address longstanding
problems related to federal IT management. The Clinger-Cohen Act requires
the head of each federal agency to implement a process that maximizes the
value of agency IT investments and assesses and manages acquisition risks.
A key goal of the Act is to ensure that agencies implement IT projects at
acceptable costs and within reasonable timeframes. Under Clinger-Cohen,
IT projects are to contribute to tangible and observable improvements in the
mission performance of each agency. The act also requires the Chief


                                     -i-
Information Officer (CIO) of each agency to develop, maintain, and facilitate
the implementation of Enterprise Architectures as a means of integrating
business processes with agency goals. The Office of Management and
Budget (OMB) has also issued guidance on IT management (Circular A-130),
which requires each federal agency to establish and maintain a capital
planning and investment control process for IT.

       The Department has not yet established an Enterprise Architecture or
ITIM processes and therefore is not in compliance with the Clinger-Cohen
Act, OMB guidance, and Department regulations. However, the Department
is actively developing and implementing new frameworks aimed at
establishing an Enterprise Architecture and ITIM processes. Also, some
Department components, such as the Federal Bureau of Investigation (FBI)
and the Drug Enforcement Administration (DEA), have made progress in
developing component-level Enterprise Architectures and ITIM processes.

       The Department’s Justice Management Division, which manages the
Department’s cross-cutting systems and 20 of its own operational and
administrative systems, began work in 1999 on developing an Enterprise
Architecture and ITIM processes, but these efforts were overtaken by higher
priority work on the broader Department-level Enterprise Architecture and
ITIM processes. Previous attempts by the Department to develop an
Enterprise Architecture and ITIM processes using established frameworks
were troubled with false starts and a lack of focus and direction. The
Department now anticipates that its current efforts to complete an
Enterprise Architecture and fully implement ITIM processes will take several
years. Without an established, comprehensive Enterprise Architecture and
mature ITIM processes in place, the Department risks investing in IT
systems that may be duplicative, poorly integrated, and costly to maintain.

Enterprise Architecture

      The Department’s Enterprise Architecture efforts began in 1999.
These efforts have suffered from a lack of institutional commitment and a
changing perception of the composition and priority of a Department
Enterprise Architecture. After several years spent attempting to develop an
Enterprise Architecture using generally accepted frameworks, the
Department decided to develop its own approach tailored to the
Department’s needs. Under a two-tiered approach, the Department’s Justice
Management Division (JMD) is responsible for developing Enterprise
Architecture for the major IT systems that span multiple Department
components, while component-specific IT systems will be covered by
Enterprise Architectures developed by the respective Department


                                    - ii -
components. Together, these two levels of architectures will comprise a
comprehensive Department Enterprise Architecture. JMD needs to oversee
and coordinate the component-level Enterprise Architecture efforts to ensure
they contribute to the formation of the Department’s Enterprise Architecture.
However, to date the Department has provided little oversight of the
components’ development of Enterprise Architectures.

      JMD is developing a framework, called the Capability Delivery Model,
to establish its Enterprise Architecture. The Department expects to
complete the framework in late FY 2005 and the resulting Enterprise
Architecture by late FY 2009. According to Department officials, the
Capability Delivery Model will not be as high-level as the commonly used
Federal Enterprise Architecture Framework (FEAF), but rather is intended to
be more useful and relevant to day-to-day operations of the Department
while containing the basic elements of the FEAF. The Department expects
the Enterprise Architecture developed through the framework to cover the
Department’s major, cross-cutting IT systems and enable the Department to
more effectively and efficiently manage its current and future IT
infrastructure and applications. The Department estimated spending
approximately $1 million on Enterprise Architecture efforts in FY 2004 and
predicts spending approximately $1.1 million in FY 2005. However,
Department officials were unable to provide us with specific expenditures
related to the cost of Enterprise Architecture efforts from FY 1999 to 2004.

      GAO Framework

      In April 2003, the U.S. Government Accountability Office (GAO), in
collaboration with the OMB and the CIO Council, published an Enterprise
Architecture framework. 1 The GAO framework provides measures to aid in
assessing the progress of an organization’s Enterprise Architecture efforts.
The GAO framework describes five stages of Enterprise Architecture maturity
and details the elements needed to achieve each stage.

      Applying the GAO five-stage framework to assess what the
Department has achieved toward developing its Enterprise Architecture, we
found that the Department has completed six of the nine elements to reach
a Stage 2 maturity level. The Department has adequate resources; a
program office responsible for Enterprise Architecture development and
maintenance; a Chief Architect; an Enterprise Architecture framework and
methodology; plans for current, target, and transitional architectures in

      1
        The framework is entitled Information Technology, A Framework for Assessing and
Improving Enterprise Architecture Management, Version 1.1 (GAO-03-584G), dated April
2003.

                                         - iii -
terms of business, performance, information, application, and technology;
and application of security within each architectural area. The Department
does not have a Department-wide committee responsible for directing,
overseeing, and approving the Enterprise Architecture; an automated tool;
or metrics for measuring Enterprise Architecture progress, quality,
compliance, and return on investment.

      The Department has made progress toward attaining Stage 3 maturity.
The Department has worked on developing a process for the establishment
of current, target, and transition architectures. However, the Department
lacks a written and approved policy for Enterprise Architecture development,
implementation, and maintenance. In addition, the Department must
ensure that when completed, all Enterprise Architecture products undergo
configuration management.2

      To attain Stage 4 maturity, the Department must complete additional
work before the Enterprise Architecture can be used as intended — to drive
sound IT investments that are consistent with the Department’s goals and
missions. The Department is working on a current architecture, transition
plan, and target architecture, which it plans to complete by FY 2009.

      To reach the Stage 5 level of a fully mature Enterprise Architecture, an
organization must use its Enterprise Architecture to drive IT investments and
ensure systems’ interoperability. The Department cannot meet Stage 5
requirements of the Enterprise Architecture Management Framework until it
completes its Enterprise Architecture.

       The foundation of the Department’s Enterprise Architecture lies in its
IT infrastructure. A consolidated infrastructure will aid the Capability
Architecture effort by providing a common conceptual framework to support
technical interoperability, defining a common Department vocabulary, and
providing a high-level description of the IT deployed throughout the
Department. We found that the Department is developing the elements of a
consolidated infrastructure through pilot programs.

      Completion of a clear and comprehensive Department Enterprise
Architecture will require a collaborative effort between the Department and
the major Department components. The two-tiered architecture envisioned
by the Department will require components to contribute Enterprise
Architectures that encompass component-specific IT systems, which are not
included in the Department’s cross-cutting Capability Architectures.

      2
        Configuration management is the process of managing changes to IT systems or
hardware.

                                        - iv -
However, some components have been independently developing Enterprise
Architectures for several years at considerable cost — $26.7 million in
FY 2004 — without substantive or consistent Department-level guidance or
monitoring. While focusing on a Department-wide Enterprise Architecture
methodology, the Department has not provided sufficient direction to ensure
that components’ Enterprise Architecture efforts are consistent with, and
meet the needs of, the overall Department Enterprise Architecture. Also, the
Department has not tracked the development of components’ Enterprise
Architectures, validated those Enterprise Architectures that have been
developed, or ensured that Enterprise Architectures are kept current.

      However, the Department has begun work to improve its oversight
and guidance in this area. For example, an Enterprise Architecture Program
Management Plan, completed June 2005, discusses the Department’s
Enterprise Architecture organization, interaction between the components
and the Department, the need for a Department-wide Enterprise
Architecture tool, and components’ use of the FEAF.

Information Technology Investment Management

      A key objective of the Clinger-Cohen Act is to ensure that agencies
implement processes for maximizing the value of IT investments and for
assessing and managing the risks of IT acquisitions. To accomplish this
objective, agencies must establish processes to ensure that IT projects are
being implemented at acceptable costs and within reasonable timeframes,
and that the projects are contributing to tangible, observable improvements
in mission performance. Additionally, OMB Circular A-130 requires each
federal agency to establish and maintain a capital planning and investment
control process for IT. The Department is in the early stages of developing a
Department-wide ITIM to share IT information, data, and infrastructure.
Some Department components have developed or are developing their own
ITIM processes, although the Department does not have overall information
regarding the cost or status of these efforts.

      Prior to FY 2004, the Department was not making investment
decisions consistent with the development of a cohesive Department IT
portfolio. Instead, the Department reviewed component IT concept
proposals and budget requests to ensure alignment with the Department’s
2002 IT Strategic Plan. In 2002, the Department initiated ITIM policies and
procedures to comply with Clinger-Cohen but found the components were
making slow progress in developing their ITIM processes. In October 2004,
the Department issued a framework for developing ITIM processes, called
the IT Strategic Management (ITSM) Framework. The Department expects


                                    -v-
the ITSM Framework to lead to a Department-level ITIM and a high level of
IT leadership and centralization of IT functions. The ITSM is intended to
encompass all IT investments of the Department by providing direction to
the larger components on what investment strategies to take, while also
providing ITIM processes for smaller components where creating complete
ITIM processes is impractical.

      The Department’s ITSM Framework consists of three phases: IT
Planning, IT Funding and Architecture, and IT Investment Oversight.

     •   The IT Planning Phase establishes IT strategies and priorities for the
         Department through the development of an IT Strategic Plan and
         then builds on those strategies through the development of an IT
         Investment Plan.

     •   The IT Funding and Architecture Phase builds on the IT Planning
         Phase. The funding portion uses an IT Investment Plan to
         formulate a budget. This occurs while the architecture effort
         develops a “conceptual architecture” to guide project development
         by providing a standard for solution architectures. The primary
         product of the IT Funding and Architecture Phase is a funded
         enterprise portfolio.

     •   The IT Investment Oversight Phase monitors the progress of
         development and implementation of the Department’s IT
         investments. This phase consists of a continuing evaluation of the
         Department’s IT portfolio to determine whether investments should
         be made, existing systems should continue to operate, or systems
         should be eliminated.

       With the implementation of the ITSM beginning in 2004, the
Department’s approach to IT management has begun to change from a
decentralized to a more centralized approach. According to a Department
official, the Department plans to take a more integrated approach and to
focus more on IT management at the Department level. This new vision has
resulted in a more proactive role by the Department in matching technology
to identified business needs.

      The ITSM framework is emphasizing the Department’s oversight role
to ensure that components’ ITIM processes and investments are aligned with
those of the Department. The Department’s initial oversight of component
ITIMs began in March 2001 with DOJ Order 2880.1A, which requires
components to have an ITIM process. Initially the Department required
components to submit their ITIM methodologies for review, but this
oversight of components’ ITIM processes was abandoned in 2002. After

                                    - vi -
2002, the Department changed its focus from the investment process to the
investments and IT products themselves, and priorities became
product-oriented instead of process-oriented. As a result of the ITSM, the
Department is now refocusing on the investment process. However, the
Department’s current oversight effort centers almost exclusively on the FBI’s
ITIM, because the FBI’s IT budget is the largest of the Department’s
components. While the Oversight Phase in the ITSM framework will be used
to supervise components’ IT projects, currently there is no Departmental
oversight or approval of ITIM processes other than the FBI’s.

Conclusions

      We found that although the Department is in the process of developing
both an Enterprise Architecture and ITIM processes based on Department-
developed frameworks, it is not yet in full compliance with the Clinger-Cohen
Act, OMB guidance, or Department regulations. However, at this early stage
of development, we believe the methodologies being implemented by the
Department — the Capability Delivery Model for an Enterprise Architecture
and the ITSM framework for ITIM — will comply with the requirements of
Clinger-Cohen and OMB A-130, if brought to completion as planned. The
Department has also begun to improve its oversight and guidance of the
components’ Enterprise Architectures and ITIM processes. However,
additional oversight of the components is needed to ensure the success of
the Capability Delivery Model and the ITSM framework.

OIG Recommendations

     In this report, we make seven recommendations for improving the
Department’s IT management. The recommendations are:

     •   Complete the Department-wide Enterprise Architecture to ensure
         that IT investments are not duplicative, are well-integrated, are
         cost-effective, and support the Department’s mission.

     •   Provide Departmental guidance to components for the development
         and maintenance of Enterprise Architectures consistent with the
         guidance provided by the Federal Enterprise Architecture
         Framework, the OMB, and the GAO.

     •   Track and review the planning, development, completion, and
         updating of component-level Enterprise Architectures.




                                   - vii -
•   Meet the requirements established by the Clinger-Cohen Act by fully
    implementing the phases outlined by the ITSM framework to ensure
    that all Department IT investments are covered by an ITIM process.

•   Ensure that components requiring ITIM processes develop them.

•   Provide assistance to components in developing and implementing
    ITIM processes.

•   Establish a clear schedule for the completion of the ITSM framework
    and the completion of a mature ITIM process.




                              - viii -
                                   TABLE OF CONTENTS

BACKGROUND ............................................................................ 1
Introduction ............................................................................... 1
Authorities ................................................................................. 1
Departmental Guidance ............................................................... 3
Enterprise Architecture Management.............................................. 5
IT Investment Management.......................................................... 9
Prior Reports ............................................................................ 10

FINDINGS AND RECOMMENDATIONS ........................................... 11
Finding 1: Enterprise Architecture............................................... 11
      Department-level Enterprise Architecture Efforts ................... 11
      Status of the Department’s Progress toward Completing
       the Five Stages of the GAO Enterprise Architecture
       Framework .................................................................... 14
      Department IT Infrastructure.............................................. 24
      Oversight of Components’ Enterprise Architecture
      Development.................................................................... 26
      Conclusion ....................................................................... 28
      Recommendations............................................................. 30

Finding 2: Information Technology Investment Management .......... 31
      Department-level ITIM ...................................................... 31
      Conclusion ....................................................................... 45
      Recommendations............................................................. 47

STATEMENT ON COMPLIANCE WITH LAWS AND REGULATIONS ....... 48
STATEMENT ON INTERNAL CONTROLS ......................................... 50
APPENDIX 1: OBJECTIVE, SCOPE, AND METHODOLOGY ................. 51
APPENDIX 2: DOJ and OCIO ORGANIZATION CHARTS ................... 53
APPENDIX 3: ACRONYMS .......................................................... 55
APPENDIX 4: SUMMARY OF ENTERPRISE ARCHITECTURE
            MANAGEMENT FRAMEWORK’S MATURITY STAGES,
            CRITICAL SUCCESS ATTRIBUTES, AND
            CORE ELEMENTS .................................................. 56
APPENDIX 5: SUMMARY OF GAO ITIM FRAMEWORK ...................... 57
APPENDIX 6: DEPARTMENT PROGRESS THROUGH STAGE 3
            OF THE ENTERPRISE ARCHITECTURE
            MANAGEMENT FRAMEWORK................................... 60
APPENDIX 7: THE THREE COMPONENTS OF THE ITIM PROCESS...... 62
APPENDIX 8: PRIOR REPORTS ................................................... 64
APPENDIX 9: DEPARTMENT ITSM FRAMEWORK’S
            CONTINUOUS INTEGRATED PROCESSES .................. 67
APPENDIX 10: THE DOJ’S RESPONSE TO THE DRAFT REPORT.......... 69
APPENDIX 11: OFFICE OF THE INSPECTOR GENERAL’S
             ANALYSIS AND SUMMARY OF ACTIONS
             NECESSARY TO CLOSE REPORT .............................. 73
                               BACKGROUND

Introduction

      The Department of Justice (Department) relies on 320 Information
Technology (IT) systems to conduct the business of the Department through
its components, offices, boards, and divisions. Most of these IT systems are
unique to the major organizational components of the Department, although
22 major systems cross-cut more than one component. In Fiscal Year (FY)
2005, the Department budgeted nearly $2.25 billion for IT, and almost half
the budget applied to cross-cutting systems.

Authorities

      Clinger-Cohen Act

      Congress enacted the Information Technology Management Reform
Act of 1996 (known as the Clinger-Cohen Act) to address longstanding
problems related to federal IT management. The Clinger-Cohen Act requires
the head of each federal agency to implement a process that maximizes the
value of agency IT investments and assesses and manages acquisition risks.
A key goal of the Act is to ensure that agencies implement IT projects at
acceptable costs and within reasonable timeframes. Under Clinger-Cohen,
IT projects are to contribute to tangible and observable improvements in the
mission performance of each agency.

       Clinger-Cohen also requires the Chief Information Officer (CIO) of each
agency to develop, maintain, and facilitate the implementation of IT
architectures as a means of integrating business processes with agency
goals. An IT architecture, commonly referred to as an organization’s
Enterprise Architecture, is an integrated framework used to acquire, evolve,
or maintain IT that achieves strategic and information resource management
goals.

      The Clinger-Cohen Act assigns to the head of an executive agency the
responsibility to develop a capital planning and investment control process
that will:

      •   provide for the selection, management, and evaluation of
          investments;

      •   be integrated with the budget, management, and program
          management processes;


                                    -1-
       •   include minimum performance criteria for comparing and prioritizing
           alternative investment projects;

       •   identify investments that would result in shared benefits or costs for
           other agencies;

       •   identify quantifiable measurements for net benefits and risks of
           investments; and

       •   provide the means for senior management to obtain timely
           information regarding the progress of an investment.

       OMB Circular A-130

      Office of Management and Budget (OMB) Circular A-130 (A-130)
requires each federal agency to establish and maintain a capital planning
and investment control process for IT, commonly referred to as Information
Technology Investment Management (ITIM). The major purpose of
establishing an ITIM process is to link agency resources with agency results.
The ITIM process is intended to guide strategic and operational information
resource management, IT planning, and the Enterprise Architecture. This is
accomplished by integrating the agency’s budget execution processes with
statutorily required strategic and performance, financial management, and
acquisition plans. 3

       According to OMB Circular A-130, agencies are to use an ITIM process
to link mission needs, information, and IT in an effective and efficient
manner. An effective ITIM process has three components: select, control,
and evaluate. The following chart describes the three fundamental phases of
this IT investment approach.




       3
         Each agency prepares these plans pursuant to specific mandates. Agency strategic
and performance plans are required by the Government Performance and Results Act of
1993, agency financial management plans are required by the Chief Financial Officer Act of
1990, and agency acquisition plans are required by the Federal Acquisition Streamlining Act
of 1994.

                                          -2-
     FUNDAMENTAL PHASES OF THE IT INVESTMENT APPROACH




        Source: Government Accountability Office

      A-130 also requires agencies to document and submit their initial
Enterprise Architectures to the OMB, as well as updates when significant
changes occur. The Enterprise Architecture is to describe both the current
architecture of an agency and its future, or target, architecture, as well as
provide a roadmap enabling the agency to both support its current IT state
and transition to a targeted environment. Such roadmaps include an
agency’s capital planning and investment control processes, Enterprise
Architecture planning processes, and system life cycle methodologies.

Departmental Guidance

      In order to meet the requirements of Clinger-Cohen and A-130, the
Department issued guidance to its components in March 2001, which
provided a framework for developing ITIM processes, including those
covering Enterprise Architectures.

      DOJ Information Resources Management Policy

      In March 2001, the Department’s Assistant Attorney General for
Administration approved DOJ Order 2880.1A, Information Resources
Management, which established an Information Resources Management
(IRM) policy for the Department based on Clinger-Cohen. This IRM policy
applies to all major Department components.

      The order requires each component to designate a CIO to serve as the
primary point of contact for IRM policy and requires the component CIO to:
(1) report directly to the respective component head, and (2) recommend a


                                        -3-
component-level ITIM process that both budgets for and prioritizes IT
investment deployment. The component CIO is to submit the component’s
ITIM process to the DOJ CIO for approval upon completion. Once the
process is approved by the DOJ CIO, the component is responsible for
managing its respective IT investment portfolios and establishing component
ITIM decision-making forums and policies. The order also requires the
components to develop and maintain Enterprise Architectures to support
their ITIM processes.

      DOJ ITIM Guide

      In August 2001, the Department issued The Guide to the Department
of Justice Information Technology Investment Management Process (Guide)
to implement the Clinger-Cohen Act, OMB Circular A-130, and other IT
management requirements. 4 The Guide requires all DOJ components to
implement an ITIM model and provides structure and support to DOJ
components developing an ITIM model tailored to the unique characteristics
of each component. The elements of an adequate ITIM process, regardless
of component size, mission, or operational requirements, are also included in
the Guide. Using the select-control-evaluate methodology, the components
are to establish a structured, repeatable, and documented process for IT
investments throughout the life cycle of the investment.

       The select-control-evaluate method outlined in the Guide is intended
to maximize component resources by focusing on strategic investment
planning decisions for ongoing and future budget requests. By integrating
each component’s existing strategic planning, budgeting, and decision-
making processes, the component’s ITIM is to conform with Departmental
policies and guidance and include timely and substantive executive-level
review at the component level.

      The requirements established in the Guide apply to all IT projects and
systems in the Department, and accordingly each Department component
must:

      •   designate a CIO who reports directly to the head of the component
          as required by DOJ Order 2880.1A,




      4
          The additional requirements include the Government Performance and Results Act,
Government Paperwork Reduction Act, Federal Acquisition Streamlining Act, Federal
Acquisition Reform Act, Executive Order 13011, OMB Circular A-11, and OMB Memorandum
M-00-07.

                                          -4-
     •   establish an Executive Review Board to approve the component’s IT
         portfolio and provide management oversight of decisions made
         about specific IT investments contained within the IT portfolio, and

     •   establish a component ITIM process that is both consistent with
         Departmental guidance and customized to function within the
         unique environment of the component.

     Technical Reference Model

      To facilitate the development of the Department’s Enterprise
Architecture, the Department issued a Technical Reference Model (TRM) in
2001. The TRM is not an architecture, but an aid to developing architectures
for the Department. The TRM provides a foundation for developing technical
and operational architectures, for defining services, and for identifying
standards for all IT systems funded by the Department. It applies to both
the development of new systems and the enhancement of existing systems.
Use of the Department TRM was intended to promote the development and
deployment of information systems that will enhance interoperability among
components and their information systems.

Enterprise Architecture Management

      In 1999, the Federal Chief Information Officers Council (CIO Council)
issued the Federal Enterprise Architecture Framework (FEAF). This
framework is illustrated in the following diagram.




                                    -5-
           FEDERAL ENTERPRISE ARCHITECTURE FRAMEWORK




                     Source: Federal CIO Council

      In support of the framework, the CIO Council issued the Practical
Guide to Federal Enterprise Architecture (Practical Guide) in
February 2001. 5 The Practical Guide describes Enterprise Architecture as a
strategic information asset base that defines the mission, the technologies
necessary to perform the mission, and the transitional processes for
implementing new technologies in response to changing mission needs. An
Enterprise Architecture is to provide a clear and comprehensive layout of an
entity, whether the entity is an organization or a functional or mission area.
According to the Government Accountability Office (GAO), investing in IT
without defining the IT investments in the context of an Enterprise
Architecture often results in systems that are duplicative, not well
integrated, and costly to maintain.



       5
          The CIO Council is the principal interagency forum for improving practices in the
design, modernization, use, sharing, and performance of federal government agency
information resources. The CIO Council’s Practical Guide provides a step-by-step process to
assist agencies in defining, maintaining, and implementing Enterprise Architectures.



                                               -6-
      An Enterprise Architecture is comprised of four elements: Business
Architecture, Data Architecture, Applications Architecture, and Technology
Architecture. Together, these elements provide a clear picture of how an
organization accomplishes its mission, goals, and objectives. It also
provides the baseline from which initiatives are planned and later compared.

      Each of the four architectures is comprised of a current or “as-is”
element that describes the existing environment, a target or “to-be” element
that describes the proposed environment, and a sequencing plan detailing
the transition from the “as-is” to the “to-be” environment.

      In April 2003, the GAO, in collaboration with the OMB and the CIO
Council, published an updated Enterprise Architecture management
framework. 6 The GAO’s new Enterprise Architecture management
framework provides measures to aid management in assessing its progress
and taking any necessary corrective action. The GAO Enterprise Architecture
framework consists of three basic components: (1) five hierarchical stages
of management maturity, (2) categories of attributes that are critical to the
success of managing any endeavor, and (3) elements of Enterprise
Architecture management that form the core of the CIO Council’s Practical
Guide.

      The GAO framework outlines five maturity stages. These stages
include steps toward achieving a stable and mature process that develops,
maintains, and implements the Enterprise Architecture of an agency. As an
organization improves its Enterprise Architecture management capabilities,
its Enterprise Architecture management maturity subsequently increases.
The five maturity stages are:

      •   Stage 1: Creating Enterprise Architecture Awareness
          A Stage 1 organization does not have plans to develop and use an
          architecture, or it has plans that do not demonstrate an awareness
          of the value of having and using an architecture. Efforts are ad hoc
          and unstructured, lack institutional leadership and direction, and do
          not provide the management foundation necessary for successful
          development.




      6
         The framework is entitled Information Technology, A Framework for Assessing and
Improving Enterprise Architecture Management, Version 1.1 (GAO-03-584G), dated
April 2003.

                                         -7-
•   Stage 2: Building the Management Foundation
    A Stage 2 organization recognizes that an Enterprise Architecture is
    a corporate asset by vesting accountability in an executive body
    that represents the entire enterprise, assigning management roles
    and responsibilities, establishing plans for developing the Enterprise
    Architecture and for measuring program progress and quality, and
    committing the resources necessary for developing the architecture.

•   Stage 3: Developing the Enterprise Architecture
    A Stage 3 organization focuses on developing architecture products
    according to the selected framework, methodology, and established
    management plans. The scope of the architecture has been defined
    to encompass the entire enterprise, whether organization-based or
    function-based. Products are intended to describe the organization
    in business, performance, data, application, and technology terms.
    Products are to describe the “as-is” and “to-be” states and the plan
    for transitioning from the current to the future state (the
    sequencing plan). The organization is tracking and measuring its
    progress against plans, identifying and addressing variances, and
    reporting on its progress.

•   Stage 4: Completing the Enterprise Architecture
    A Stage 4 organization has completed its products and obtained the
    approval of a steering committee (or an investment review board)
    and the CIO. Evolution of the approved products is governed by a
    written maintenance policy approved by the head of the
    organization.

•   Stage 5: Leveraging the Enterprise Architecture to Manage
    Change
    A Stage 5 organization has obtained senior leadership approval of
    products and has established a written institutional policy stating
    that IT investments must comply with the architecture, unless
    granted an explicit compliance waiver. Decision-makers are using
    the architecture to identify and resolve ongoing and proposed IT
    investments that are conflicting, overlapping, not strategically
    linked, or redundant. The organization tracks and measures
    benefits or return on investment, and adjustments are continuously
    made to the Enterprise Architecture management process and
    products.




                                -8-
      With the exception of the first stage, each maturity stage is composed
of the following four success attributes that are critical to the successful
performance of any management function:

      •   Demonstrates Commitment by the head of the enterprise
          providing support and sponsorship to achieve the success of the
          Enterprise Architecture effort.

      •   Provides the Capability to Meet Commitment by developing,
          maintaining, and implementing Enterprise Architecture through
          adequate resources, clear definitions of roles and responsibilities,
          and implementing organizational structures and process
          management controls that promote accountability and effective
          project execution.

      •   Demonstrates Satisfaction of Commitment to develop,
          maintain, and implement Enterprise Architecture by producing
          Enterprise Architecture plans and products.

      •   Verifies Satisfaction of Commitment by measuring and
          disclosing the extent to which efforts to develop, maintain, and
          implement the Enterprise Architecture have fulfilled stated goals or
          commitments. Measuring performance allows for tracking progress
          toward stated goals, allows appropriate actions to be taken when
          performance deviates significantly from goals, and creates
          incentives to influence both institutional and individual behaviors.

       Collectively, these attributes form the basis by which an organization
can institutionalize the management of any given function or program, such
as Enterprise Architecture management. Each attribute contains core
elements that contribute to the effective implementation and
institutionalization of a critical success attribute. Appendix 4 summarizes
the interrelationships of the elements in the Enterprise Architecture
management process.

IT Investment Management

      In 1997, the GAO issued Assessing Risks and Returns: A Guide For
Evaluating Federal Agencies’ IT Investment Decision-making, in which the
GAO stated that investments in IT can have a dramatic impact on an
agency’s performance. Well-managed IT investments that are carefully
selected and focused on meeting mission needs can propel an agency
forward, dramatically improving performance while reducing costs.


                                     -9-
Likewise, poor investments, those that are inadequately justified or whose
costs, risks, and benefits are poorly managed, can hinder and even restrict
an agency’s performance.

       To provide a method for evaluating and assessing how well an agency
is selecting and managing its IT resources, in May 2000 the GAO issued
Information Technology Investment Management: A Framework For
Assessing and Improving Process Maturity, and updated the framework in
March 2004. The GAO’s ITIM framework outlines a set of essential and
complementary management disciplines such as ITIM, strategic planning,
and software development. The ITIM framework supports the fundamental
requirements of the Clinger-Cohen Act and is intended to be used as a tool
for implementing the required processes. Appendix 5 contains a summary of
the GAO ITIM Framework.

      OMB Circular A-130 requires that agencies establish and maintain a
capital planning and investment control process that links mission needs,
information, and information technology in an effective and efficient manner.
A-130 divides the process into the Select, Control, and Evaluate stages. See
Appendix 7 for summary of OMB Circular A-130’s three ITIM stages.

Prior Reports

      We identified eight reports issued since May 2000 by the GAO and the
Office of the Inspector General (OIG) that are relevant to this audit. See
Appendix 8 for details of the eight reports.

      In general, the GAO has reported that although almost all federal
agencies had created some type of ITIM process, none had yet implemented
stable processes addressing all three phases of the select-control-evaluate
approach. The GAO also reported that the federal government as a whole
had not reached a mature state of Enterprise Architecture management.
The OIG reports identified vulnerabilities with management, operational, and
technical controls in specific Department IT systems. In addition, the OIG
examined the status of Federal Bureau of Investigation (FBI) and Drug
Enforcement Administration’s (DEA) ITIM processes and Enterprise
Architectures.




                                   - 10 -
                  FINDINGS AND RECOMMENDATIONS

Finding 1: Enterprise Architecture

     The Department of Justice does not yet have an Enterprise
     Architecture despite intermittent efforts begun in 1999.
     However, the Department is developing and implementing
     frameworks aimed at establishing an Enterprise Architecture,
     which the Department expects to complete by 2009. When
     completed, the Enterprise Architecture should provide a blueprint
     for the Department to more effectively and efficiently manage its
     current and future IT infrastructure and applications. The
     Department abandoned its earlier attempts to develop an
     Enterprise Architecture using generally accepted frameworks and
     is now developing a Department-level Enterprise Architecture for
     the major cross-cutting IT systems that span multiple
     Department components, and component-specific IT systems
     that will have Enterprise Architectures developed by the
     respective components. However, we found that the
     Department is providing little oversight of the components’
     development of Enterprise Architectures. It is also unclear
     whether the Department’s two-tier approach will result in an
     Enterprise Architecture that encompasses all IT throughout the
     Department. Without a comprehensive Enterprise Architecture,
     the Department risks investing in IT systems that could be
     duplicative, poorly integrated, and costly to maintain. The
     successful completion of the Department’s Enterprise
     Architecture, along with individual components’ Enterprise
     Architectures, will mitigate those risks and provide a realistic
     vision of future IT requirements.

Department-level Enterprise Architecture Efforts

       Efforts to develop a Department Enterprise Architecture have been
underway since 1999. However, the Department’s efforts to develop an
Enterprise Architecture have suffered from a lack of institutional
commitment and a changing perception of the composition of, and priority
for, a Department-level Enterprise Architecture. Adding to this confusion are
the additional Enterprise Architectures developed by components.

     In 2001, the Department began developing an Enterprise Architecture
based on the Federal Enterprise Architecture Framework (FEAF). The
Department secured funding and hired System, Data, Infrastructure, and


                                   - 11 -
Business Architects and an Investment Management Coordinator. This
group assembled “as-is” business, data, and application architectures by
December 2001. However, a Department official told us that other priorities
prevented this early Enterprise Architecture effort from continuing. Further,
the “as-is” architectures were not updated and were not useful for later
efforts to develop a Department-wide Enterprise Architecture.

       In 2002, the Department began using the Federal Enterprise
Architecture Management System (FEAMS), a web-based automated tool
that provides agencies with access to initiatives aligned to the FEAF and
associated reference models to assist in developing an Enterprise
Architecture. 7 The FEAMS was designed in close cooperation with the OMB,
and the OMB required the Department to use the FEAMS to develop its
Enterprise Architecture. According to a Department official, the Department
considered the FEAMS to be a cumbersome system that made inputting and
extracting data difficult. Further, while the system served as a storage place
for models, it could not perform analyses. Consequently, despite the OMB’s
direction, the Department discontinued the FEAMS.

      In 2003, the Department piloted the Popkin System Architect software
for use as its automated tool. Although the DEA used the Popkin software in
developing its Enterprise Architecture, a Department official stated that
Popkin would require significant modifications to serve the Department’s
purposes. Based on the results of the pilot, the Department decided not to
use Popkin. A Department official stated that commercial off-the-shelf tools
are now being explored as aids to the development of the Enterprise
Architecture. However, the Department has no timetable for acquiring an
automated tool to document the development of the Department’s
Enterprise Architecture. In addition, Department officials were unable to
provide expenditure data for Enterprise Architecture efforts prior to FY 2004.

      After rejecting the FEAF along with the FEAMS automated tool, the
Department began devising its own framework intended to lead to a
Department-wide Enterprise Architecture. The Department expects the
framework, called the Capability Delivery Model, to be completed in late
FY 2005 and the resulting Enterprise Architecture by late FY 2009.
According to Department officials, the Capability Delivery Model, while
including the basic elements of the FEAF, will not be as high-level as the
FEAF, but rather is intended to be more useful and relevant to day-to-day
operations. The Department expects the Enterprise Architecture developed
through the Capability Delivery Model to cover the Department’s major,

       7
         An automated tool is an electronic repository for capturing, updating, and
disseminating an Enterprise Architecture across an organization.

                                          - 12 -
cross-cutting IT systems and enable the Department to more effectively and
efficiently manage its current and future IT infrastructure and applications.

      The Department anticipates the Capability Delivery Model will be a
more detailed, refined, Department-specific version of the FEAF. The
foundation of the model is the Department’s mission areas. For each
mission area, component-specific goals and objectives will be developed,
and capabilities will be identified to achieve them. Mechanisms — including
systems, hardware, and software — will be obtained to support multiple
capabilities. This process is illustrated in the following diagram.
                                                          Capability Delivery Model
                                                                      Capability
                                              Business                         Sub
          Mission                             Process                      Capability
                Goal
                                                         Capability
        Objective           Objective                      Sub-
         Objective
                      Objective

                                              Business   Capability
                        Objective
                                                                          Sub-
                                              Process                                      Mechanism
                                                                        Capability
                Goal
                                                                Capability      Sub-
               Objective                      Business
                                  Objective
                                              Process                         Capability   Mechanism
        Objective

                        Objective
                                                                Sub-
                                                              Capability

                Goal                          Business
                                                                                           Mechanism
                                              Process           Capability
              Objective


          Objective
                            Objective                       Sub-
                         Objective
                                                          Capability
                                              Business                         Sub
                                              Process                        Capability    Mechanism
                Goal                                            Sub-
                    Objective
                                                              Capability
         Objective          Objective



                                              Business
                                              Process                 Capability



     Source: Justice Management Division


       The Capability Delivery Model is being developed by creating several
pilot architectures for categories of systems, such as an architecture for
Terrorism Information Sharing, which stems from the Department’s mission
to prevent terrorism. A goal derived from this mission is the sharing of
information among Department components involved in counterterrorism
efforts. Examples of objectives within this goal are the interoperability,
accessibility, and security of shared information. Once the goals and
objectives are clarified, relevant component business processes are
evaluated to develop a capability to meet them. In this example, the
capability is the Intelligence Terrorism Information Sharing Environment.
Specific IT mechanisms will then be put in place to enable the Terrorism
Information Sharing Environment to be implemented.



                                                                  - 13 -
      The Department has developed Capability Architectures for Security,
Public Key Infrastructure (PKI), and Telecommunications, and is currently
developing the following Capability Architectures:

      •   Terrorism Information Sharing
      •   Arson and Explosives
      •   Law Enforcement Information Sharing
      •   Case Management
      •   Financial Management
      •   E-Government
      •   Integrated Wireless Network
      •   Other Classified functions

       The Department expects to combine these Capability Architectures to
form an overall Department-level Enterprise Architecture and then use it to
manage the development of IT systems that cross-cut multiple Department
components. This approach of using Capability Architectures is what makes
the Department’s Enterprise Architecture different from one created through
the FEAF. The FEAF methodology relies on the development of various
reference models that describe an organization’s business, data necessary to
conduct the business, applications to manage the data, and technology to
support the applications. Instead of relying on various reference models,
the Department’s Enterprise Architecture will focus on the specific missions
of the organization. Department managers told us that this approach
provides a more specific and useful architecture tailored to the Department.
While these two methodologies for developing Enterprise Architectures
differ, Department officials stated that the elements required in the FEAF will
be present in the Department’s Enterprise Architecture.

Status of the Department’s Progress Toward Completing the Five
Stages of the GAO Enterprise Architecture Framework

       We used the criteria in the GAO’s Enterprise Architecture framework to
evaluate the Department’s progress in developing a Department-wide
Enterprise Architecture. To implement each of the five maturity stages of
the GAO framework discussed below, the Department must complete four
critical success attributes: (1) demonstrate commitment,
(2) provide the capability to meet the commitment, (3) demonstrate
satisfaction of commitment, and (4) verify satisfaction of commitment. Each
attribute contains core elements that contribute to the effective
implementation and institutionalization of the critical success attribute.
Collectively, these attributes form the basis by which an organization can
institutionalize management of any given function or program.


                                    - 14 -
     We found that the Department has nearly completed what equates to
Stage 2 of the five-stage GAO framework and has made some progress
toward the third stage of maturity.

Stage 1 — Completed

      In meeting the criteria for this stage, the Department created an
awareness of the value of developing and using an Enterprise Architecture
by providing the management foundation necessary for successful Enterprise
Architecture development, as defined in Stage 2.

Stage 2 — Nearing Completion

      The Department has completed five of the nine core elements required
by the GAO framework and has achieved one of the four critical attributes.
To meet the criteria for this stage, the Department needs to: (1) ensure the
existence of adequate resources; (2) establish Department-wide
committees responsible for directing, overseeing, and approving the
Enterprise Architecture; (3) develop the Enterprise Architecture using an
automated tool; and (4) develop metrics for measuring Enterprise
Architecture progress, quality, compliance, and return on investment.

      Critical Attribute 1: Demonstrates Commitment

     To complete the first critical attribute for Stage 2 of the GAO
framework, the Department must demonstrate its commitment to building
an Enterprise Architecture management foundation by establishing two core
elements:

      (1)   ensure the existence of adequate resources; and

      (2)   establish Department-wide committees responsible for directing,
            overseeing, and approving the Enterprise Architecture.

We determined the Department has not fully implemented the two core
elements under the first critical attribute for Stage 2.

      Adequate Resources. Obtaining adequate resources includes:
(1) identifying and securing the funding necessary to support Enterprise
Architecture activities; (2) hiring and retaining employees with the proper
knowledge, skills, and abilities to plan and execute the Enterprise
Architecture program; and (3) selecting and acquiring the tools and
technology to support Enterprise Architecture activities.


                                    - 15 -
      According to a Department official, the Department spent
approximately $1 million on developing its Enterprise Architecture in
FY 2004 and plans to spend approximately $1.1 million in FY 2005, amounts
that appear adequate for continuing development at this point. The
Enterprise Architecture Program Management Office includes the Chief
Architect, Enterprise Architecture Program Manager, Business Architect,
Systems Architect, Data Architect, Infrastructure Architect, Security
Architect, Configuration Manager, Senior Systems Architecture Consultant,
and Technical Writer. In our opinion, these employees have sufficient
knowledge and experience to establish an Enterprise Architecture.

      However, the Department does not yet have a tool to assist in the
development of its Enterprise Architecture that clearly and completely
documents the Department’s Enterprise Architecture. As discussed
previously, the Department tested the Popkin System Architect tool and
found it unacceptable. The Department is in the process of identifying tools
and technology to support its Enterprise Architecture activities. Because the
Department does not have all the adequate resources for an Enterprise
Architecture, the first core element is not fully implemented.

       Enterprise Architecture Governing Committees. Responsibility for
directing, overseeing, and approving architectures should be given to a
committee or group with cross-representation from throughout the
enterprise. Establishing agency-wide responsibility and accountability is
important to demonstrate the agency’s commitment to building a
management foundation for the Enterprise Architecture and obtaining buy-in
from across the agency. Accordingly, the committee or group should include
executive-level representatives from each line of the business, and these
executive representatives should have the authority to commit resources
and enforce decisions within their respective organizational units.

      The Department had established an Enterprise Architecture Committee
(EAC) in 2001, which reported to the Department of Justice CIO Council.
However, the EAC is no longer active. 8 The EAC was established to support
the formulation and adoption of a Departmental Enterprise Architecture by
ensuring that the Department-level Enterprise Architecture met all federal
requirements. Further, the EAC was a deliberative body for the
Department’s chief IT architects to:

      8
          The Department CIO established the Council to support the implementation of the
Clinger-Cohen Act and other federal laws and policies related to IT management. Among
other things, the Council reviews and makes recommendations to the Department CIO on IT
projects, strategies, policies, and procedures and practices — both Department-wide or for
any component.

                                         - 16 -
     •   provide a forum for sharing and discussing Enterprise Architecture
         information;

     •   coordinate activities related to Departmental and federal Enterprise
         Architecture issues and priorities;

     •   collaborate on Departmental Enterprise Architecture strategies,
         management issues, and policies and practices;

     •   make recommendations to the Council for appropriate action;

     •   foster networking among Departmental IT architecture
         professionals;

     •   promote technology and security awareness to enhance Enterprise
         Architecture planning;

     •   work together on cross-cutting issues to reduce redundant efforts
         and improve architectural consistency; and

     •   support an effective working relationship between the components
         and the Department’s Justice Management Division (JMD) so that
         their respective Enterprise Architecture responsibilities can be met.

      In our judgment, the membership of the EAC demonstrated an
agency-wide leadership commitment to the Enterprise Architecture process.
The EAC was comprised of the Chief Architects from the Federal Bureau of
Prisons; DEA; FBI; Bureau of Alcohol, Tobacco, Firearms and Explosives
(ATF); Office of Justice Programs; Executive Office for U.S. Attorneys; JMD;
U.S. Marshals Service; and other key architects within the Department.
Also, a component CIO was designated to serve as EAC Chair, and the
Department’s Chief Architect was designated vice-chair.

       The Committee met monthly from 2001 to 2002, then intermittently
until disbanding in early 2004. Although a Department official stated the
committee planned in early 2004 to regroup and begin meeting again, the
Committee has been inactive since early 2004. The official explained that
the Committee stopped meeting to rethink, regroup, and decide where the
Department-wide Enterprise Architecture efforts were going. Therefore, the
Department no longer meets one of the core elements required under the
GAO framework to demonstrate its commitment.




                                    - 17 -
      Critical Attribute 2: Provides Capability to Meet Commitment

      The completion of the second critical attribute for achieving Stage 2
requires the Department to establish three core elements:

      (1) establish a program office responsible for Enterprise Architecture
          development and maintenance;

      (2) appoint a Chief Architect; and

      (3) develop the Enterprise Architecture using a framework,
          methodology, and automated tool.

The Department has made progress toward implementing these three core
elements. The Department has implemented core elements 1 and 2, but
core element 3 is not fully implemented.

      Enterprise Architecture Program Office. Enterprise Architecture
development and maintenance should be managed as a formal program.
Accordingly, responsibility for Enterprise Architecture management should be
assigned to an organizational unit and not an individual. The CIO Practical
Guide, discussed in the Background section of this report, states that the
primary responsibility of the Enterprise Architecture Program Office is to
ensure the success of the Enterprise Architecture program.

       Within the Department, JMD’s Policy and Planning staff is responsible
for maintaining, refining, updating, and applying the Department Enterprise
Architecture. To implement this core element, the Policy and Planning staff
gathers and maintains information about the Department’s current state of
IT resources and a “to be” target state. The target state aims to improve
the current state in ways such as minimizing redundancy of IT services,
improving the ability to share information Department-wide and with
external stakeholders, and retiring IT assets that are no longer providing
optimum service. Enterprise Architecture information, tightly coupled with
cost information on IT business investments, helps the CIO make strategic
decisions about the direction and evolution of the Department’s IT services.

       Chief Architect. The CIO Practical Guide and the GAO framework state
that an agency should appoint a Chief Architect who is responsible and
accountable for the Enterprise Architecture and whose background and
qualifications include both the business and technology areas of the
organization. Additionally, the Chief Architect is responsible for ensuring the



                                    - 18 -
integrity of the Enterprise Architecture development process and for the
content of the Enterprise Architecture products.

      The Department has a Chief Architect who is the principal advisor to
the Department’s Chief Technology Officer and CIO on all Department-wide
Enterprise Architecture matters. The Department’s Chief Architect is
responsible for:

     •   leading the development of Enterprise Architecture products,

     •   serving as the technology and business leader in ensuring the
         integrity of architectural development processes and products,

     •   providing technical and strategic planning and policy development,
         and

     •   providing guidance to capital planning and IT investments.

      Framework, Methodology, and Automated Tool. The Department is
developing its own Enterprise Architecture framework and methodology
through its Capability Delivery Model. The Department’s framework is to be
an architecture based on capability areas within the entire Department and
its components, with individual capability architectures acting as building
blocks that are intended to form a Department-wide Enterprise Architecture.
This Department-wide Enterprise Architecture will include both cross-cutting
and component-specific capabilities.

       An Enterprise Architecture automated tool serves as the storehouse of
the architecture products. Architecture products include the current and
target architectures and the transition plan. The choice of tool is based on
the agency’s needs and the size and complexity of the architecture. As
stated previously, the Department tested the Popkin automated tool to store
its architecture products but is now exploring alternatives to Popkin.

     Critical Attribute 3: Demonstrates Satisfaction of Commitment

      The completion of the third critical attribute for achieving
Stage 2 requires the Department to establish an Enterprise Architecture
Program Plan that includes the following core elements:

     (1) describes both the current and the target architectures as well as
         a transition plan;



                                   - 19 -
     (2) describes the current and target architectures in terms of
         business, performance, information, application, and technology;
         and

     (3) determines the application of security within each architectural
         area.

The Department’s Enterprise Architecture Completion and Use Plan
completes the three core elements under Critical Attribute 3.

      Current and Target Architectures, and Transition Plan. The
interagency CIO Council requires that agencies have a written Enterprise
Architecture Program Plan. The plan should describe the steps to be taken
and the tasks to be performed in managing the Enterprise Architecture
program. The plan should also make provision for the development of
architectural descriptions of how the organization currently operates (the
current architecture), how it intends to operate in the future (the target
architecture), and how it will transition from the current to the target
environment (the transition plan).

     The Department submitted a Department Enterprise Architecture
Completion and Use Plan to the OMB in February 2005, and is working on a
Department Enterprise Architecture Program Management Plan. The
Department’s Management Plan will:

     •   establish a Department-wide “as-is” architecture;

     •   update a capability-based target “to-be” architecture; and

     •   develop a transition or sequencing plan based on the Department-
         wide “to-be” architecture.

      Security. The Department has a comprehensive Security Architecture
in place that will be aligned with security standards for the Department’s
overall Enterprise Architecture efforts.

     Critical Attribute 4: Verifies Satisfaction of Commitment

      The completion of the fourth critical attribute to achieve Stage 2
requires the Department to ensure that the Program Plan calls for
developing metrics for measuring Enterprise Architecture progress, quality,
compliance, and return on investment. The Department has not
implemented this core element.


                                   - 20 -
      The measurement of Enterprise Architecture progress, quality, and
compliance is necessary to ensure that the Enterprise Architecture meets the
targeted milestones and is compliant with necessary regulations. Measuring
return on investment would tell the Department what benefits are realized
by the development of the Enterprise Architecture in relation to its cost.

      Developing Metrics for Measuring Enterprise Architecture Progress.
The Department has not yet established metrics for measuring Enterprise
Architecture progress, quality, compliance, and return on investment. The
Department’s Enterprise Architecture Completion and Use Plan states that
Enterprise Architecture links performance measures to some portions of the
architecture segments. This does not meet the criteria for the fourth
attribute.

Stage 3 — Limited Progress

      The Department is moving from building the Enterprise Architecture
management foundation to developing Enterprise Architecture products for
Stage 3. To complete Stage 3, the Department must still: (1) establish an
organization policy for the Enterprise Architecture development; (2) ensure
that Enterprise Architecture products are under configuration management;
(3) ensure that Enterprise Architecture products describe both the current
and target environments of the agency; (4) ensure that the business, data,
application, and technology descriptions address security; and (5) ensure
that progress against Enterprise Architecture plans is measured and
reported.

      The Department has made limited progress toward attaining
Stage 3 maturity of the GAO Enterprise Architecture Management
Framework. The Department has made progress on developing a process
for developing current, target, and transition architectures. However, the
Department lacks a written and approved policy for Enterprise Architecture
development, implementation, and maintenance. In addition, the
Department must ensure that when completed, all Enterprise Architecture
products undergo configuration management and that the Enterprise
Architecture addresses security, as stated in the Enterprise Architecture
Completion and Use Plan.

     Critical Attribute 1: Demonstrate Commitment

      To complete the first critical attribute for Stage 3 of the Enterprise
Architecture Management Framework, the Department must establish the
following core element: develop a written and approved organization policy


                                   - 21 -
for the Enterprise Architecture development. The Department has not
completed this core element.

      According to the Enterprise Architecture Management Framework, an
organization policy is an important means for ensuring agency-wide
commitment to developing the Enterprise Architecture and for clearly
assigning responsibility for doing so. The architecture policy should define
the scope of the architecture, including a description of the current and
target architecture, as well as a transition plan that supports the move from
the current to the target architecture. Additionally, the policy should provide
processes for Enterprise Architecture oversight and control, review, and
validation. The policy should also address the purpose and value of an
Enterprise Architecture, its relationship to the organization’s strategic vision
and plans, and its relationship to the capital planning process.

      The Department has not established a written and approved
organization policy for Enterprise Architecture development. As described in
Stage 2, the Department established the Enterprise Architecture Program
Office with responsibility for developing the Enterprise Architecture. In
addition, the Enterprise Architecture Program Management Plan — discussed
in Stage 2 — outlines a high-level scope of the architecture, including a
description of the planned current and target architecture, as well as the
transition plan. The Enterprise Architecture Program Management Plan also
addresses Enterprise Architecture oversight, control, review, and validation
responsibilities, but in little detail.

      Critical Attribute 2: Provides Capability to Meet Commitment

     The completion of the second critical attribute for achieving Stage 3
maturity requires the Department to establish the following core element:
ensure that Enterprise Architecture products are under configuration
management. 9 The Department has not yet met this standard.

      According to the draft of the Department Enterprise Architecture
Program Management Plan, the Enterprise Architecture Program Office will
perform configuration management of Enterprise Architecture Products. The
Office will also prepare and publish policy to include establishment of
necessary configuration committees.




      9
        Configuration management is the process of managing changes to IT systems or
hardware.

                                        - 22 -
     Critical Attribute 3: Demonstrates Satisfaction of Commitment

     The completion of the third critical attribute for achieving
Stage 3 maturity requires the Department to establish three core elements:

       (1) ensure that Enterprise Architecture products describe the current
           and target agency environments and the transition plan;

       (2) ensure that the current and target environments are described in
           terms of business, data, application, and technology; and

       (3) ensure that the business, data, application, and technology
           descriptions address, or will address, security.

The Department has not implemented core elements 1 and 2. The
Department addresses security in its Enterprise Architecture plans;
therefore, core element 3 is complete.

      Current and Target Architectures, and Transition Plan. According to
the Enterprise Architecture Program Management Plan, Enterprise
Architecture products will describe the current and target agency
environments, as well as the transition plan. As stated earlier, the
Department has not completed all components of the Enterprise
Architecture. The current, target, and transition processes for the
Department are to be identified, approved, and documented by the end of
FY 2006. The Enterprise Architecture Program Plan also states that
Enterprise Architecture products — current and target architectures and the
transition plan — will be described in terms of business, data, application,
and technology.

      Security. The Department Enterprise Architecture Completion and Use
Plan states that Enterprise Architecture will align security standards to the
Technical Reference Model.

     Critical Attribute 4: Verifies Satisfaction of Commitment

      The completion of the fourth critical attribute to achieve Stage 3
maturity requires the Department to establish the following core element:
ensure that progress against Enterprise Architecture plans is measured and
reported. The Department has not implemented this core element.

    As stated in Stage 2, the Department has not established metrics for
measuring Enterprise Architecture progress. The measurement of such


                                   - 23 -
progress against Enterprise Architecture development plans is necessary to
ensure that the development meets targeted milestones.

Stage 4 — to be Completed

      Additional work must be completed before the Enterprise Architecture
is used as intended in Stage 4 — to drive sound IT investments that are
consistent with the Department’s goals and missions.

      To complete Stage 4, an agency must: (1) establish policy for
maintaining the Enterprise Architecture; and (2) complete the Enterprise
Architecture, including the current and target architectures along with the
transition plan to get from the current to the targeted environments. The
completed Enterprise Architecture must be described in terms of business,
data, application, and technology; the descriptions must address security
and be approved by the agency CIO and the committee or group
representing the agency or the investment review board. The Department
has not established a policy for maintaining the Enterprise Architecture.

Stage 5 — to be Completed

      To reach Stage 5 maturity, an agency must use its Enterprise
Architecture to drive IT investments and ensure systems’ interoperability.
The Department cannot meet Stage 5 requirements of the Enterprise
Architecture Management Framework until it completes its Enterprise
Architecture.

       According to the GAO framework, an organization at Stage 5 maturity
has completed the Enterprise Architecture and secured senior leadership
approval of it. Further, decision-makers are using the architecture to
identify and address ongoing and proposed IT investments that are
conflicting, overlapping, not strategically linked, or redundant. Stage 5
agencies are therefore able to avoid unwarranted overlap across investments
and ensure maximum system interoperability, which in turn ensures the
selection and funding of IT investments with manageable risks and
acceptable returns on investment.

Department IT Infrastructure

       The foundation of the Department’s Enterprise Architecture lies in its
IT infrastructure. The Department’s IT Strategic Plan describes the state of
the Department’s IT infrastructure as follows.



                                    - 24 -
      Currently, the Department’s infrastructure is largely
      decentralized, fragmented and outdated. It is essentially an
      amalgamation of infrastructures designed, developed and
      maintained by individual components to meet their specific
      needs. This approach has introduced an unnecessary level of
      complexity, cost and risk, and inadvertently created technical
      barriers to sharing information.

       The IT Strategic Plan establishes a Strategic Initiative to “develop the
Infrastructure architecture layer of the Department’s Enterprise
Architecture.” Specifically, “The Department will work with the components
to develop a Department-wide infrastructure architecture — a layer of the
Department’s overall Enterprise Architecture. The infrastructure architecture
will provide a common conceptual framework to support technical
interoperability, define a common DOJ vocabulary, and provide a high-level
description of the information technology deployed throughout the
Department.”

      A consolidated infrastructure will aid the Capability Architecture effort.
The Department is developing the elements of a consolidated infrastructure
through a number of pilot programs. One example is the Public Key
Infrastructure (PKI), created to resolve the Department’s computer security
concerns. PKI is intended to implement an IT security program as well as
complete the design, development, and implementation of a secure and
trusted IT environment.

      The Infrastructure Architect is the person responsible for consolidating
the Department’s IT infrastructure. The Infrastructure Architect has
described the following four critical elements of a consolidated infrastructure.

      •   Ubiquitous Communication: single, Department-wide
          communications application.

      •   Uniform Security: Department-wide security architecture and
          standards.

      •   Identity: identification of users and management with access to
          Department systems.

      •   Directory Service: Department-wide user database.




                                     - 25 -
       The Infrastructure Architect foresees cost savings, economies of scale
in IT acquisitions, and enhanced enforcement of security and management
of IT performance as benefits resulting from this consolidation. At the time
of our field work, a draft Consolidated Infrastructure plan was nearing
completion.

Oversight of Components’ Enterprise Architecture Development

      Completion of a clear and comprehensive Department Enterprise
Architecture will require a collaborative effort between the Department and
the major Department components. The two-tiered architecture envisioned
by the Department will require components to contribute Enterprise
Architectures that encompass those component-specific IT systems that are
not included in the Department’s cross-cutting Capability Architectures.
Some components, such as the FBI and the DEA, have made progress in
developing their component-level Enterprise Architectures. Others, such as
JMD, have not. In JMD’s case, efforts begun in 2003 to develop a
component-level Enterprise Architecture were held in abeyance as work
began on the higher-priority Department-level Enterprise Architecture.

       The Department’s FY 2004 Report on Information Technology identifies
funds budgeted for Enterprise Architecture and related planning. The table
provides a 1-year snapshot of money budgeted for Enterprise Architecture
efforts.




                                    - 26 -
      FY 2004 Component Enterprise Architecture (EA) Budgets

                                                             Total
     Component                    Budget Line Item
                                                          Investment
Bureau of Alcohol,
Tobacco, Firearms and      EA/Configuration Management     $3,900,000
Explosives
Antitrust Division         EA/IT/IRM                       $1,065,000
Federal Bureau of
                           IRM                               $928,000
Prisons
Community Oriented
                           IT Architecture                   $475,000
Policing Services
Drug Enforcement           EA/ITIM/Capability Maturity
                                                           $1,204,000
Administration             Model
Federal Bureau of
                           EA/ITIM                         $2,786,000
Investigation
Interpol                   IT Architecture/Planning          $175,000
Justice Management         JMD/IMSS Architecture
                                                           $1,521,000
Division                   Program
National Drug
                           EA/ITIM/IRM                       $940,000
Intelligence Center
Office of the Inspector
                           EA and Planning                   $100,000
General
Office of Justice
                           IT Management/Architecture      $2,700,000
Programs
US Attorneys               IT Program Management             $602,000
US Marshals Service        IT Management                  $10,317,000
Total                                                    $26,713,000
Source: Department of Justice FY 2004 Budget

       In 2001, the Department requested that components submit their ITIM
processes for review. However, the Department did not make a similar
request for Enterprise Architectures. The Department also issued guidance,
based on a Technical Reference Model, to develop a high-level Enterprise
Architecture for the Department. A Department official stated that the only
guidance provided to the components on Enterprise Architecture was
through the Technical Reference Model and the Enterprise Architecture
Committee (discussed in the Department Enterprise Architecture section of
this report). Also, the Department did not track the development of
components’ Enterprise Architectures, validate Enterprise Architectures
developed, or ensure that Enterprise Architectures were kept current.




                                        - 27 -
       According to the CIO, the Department conducts little oversight of
component Enterprise Architectures. The CIO described a “broad brush”
programmatic approach to the oversight of component Enterprise
Architectures, which includes establishing standards and Enterprise
Architecture tools, developing work plans for a Department-wide Enterprise
Architecture, and establishing management of component-level Enterprise
Architectures. However, as of June 2005, none of these efforts had been
completed. At the same time, according to the CIO, the Department takes a
“deep dive” approach in overseeing the components with selected Enterprise
Architecture capability areas. According to the Chief Technology Officer
(CTO), as discussed earlier the capability areas cross-cut multiple
components and include Financial Management, Law Enforcement
Information Sharing, Case Management, and the Justice Consolidated Office
Network (JCON). The CTO also said there are several E-government-related
architecture efforts in progress at the federal level for which the Department
is either the managing partner or is an active participant. Therefore, these
select few architectures merit more intensive Department oversight.

       The CTO stated that components should develop project-specific
architectures as necessary for projects that are a priority to the component,
because these projects may not be included in the Department Enterprise
Architecture. For architecture projects currently identified as common
solutions or E-government projects, the Department Enterprise Architecture
will provide guidance to the Enterprise Architecture program teams as
necessary. The CTO stated that even though the Department is already
informally involved to varying degrees with some components’ architecture
efforts, it is in the process of establishing a formal Department Enterprise
Architecture governance structure. The Department Enterprise Architecture
program document will provide guidance to the components and program
managers of other cross-component architecture efforts at the same time.
According to the CIO, some of the common solution projects are underway
and need a lesser degree of involvement from the Department’s Enterprise
Architecture team. For architecture efforts that are identified as common,
multi-component solutions in the future, the Department Enterprise
Architecture will take the lead in developing the Enterprise Architecture
teams and play a greater role in developing the architecture. All
architecture efforts within the Department are to map their Enterprise
Architecture to meet OMB, FEAF, and GAO guidance.

Conclusion

       An organization without a completed Enterprise Architecture assumes
the risk that it will invest in IT that is duplicative, not well integrated, costly,


                                       - 28 -
or not supportive of the agency’s mission. Until a Department-wide
Enterprise Architecture is completed, the Department faces such risks. Once
the Enterprise Architecture is completed, the risks will be reduced and the
Department will have a more realistic vision of its future IT requirements.

       The current effort to develop a Department-wide, capability-based
Enterprise Architecture for systems that cross-cut two or more components
is in an early stage. Instead of being based on the generally accepted FEAF,
this Enterprise Architecture will be based on the Department’s self-created
framework: the Capability Delivery Model. We believe it is too soon in the
development of the model to determine if it will contain all the necessary
elements of an Enterprise Architecture. It is also too soon to determine if,
when fully developed, the model will result in an Enterprise Architecture that
conforms to GAO, FEAF, and OMB guidance.

        The Department believes that the most efficient approach to its
Enterprise Architecture is to focus its efforts on major, cross-cutting IT
systems with individual architectures for groups of systems such as case
management systems. Component-level projects are expected to be
covered by component-level Enterprise Architectures, which together with
the Capability Architectures are to form the Department Enterprise
Architecture. The Capability Delivery Model approach focuses on the high-
visibility and high-cost cross-cutting IT projects. We believe that focusing
management attention on high-risk projects is a prudent approach.
However, a successful Enterprise Architecture should present a clear and
comprehensive view of an organization, and the Department must take care
to avoid a disjointed, fragmented, or incomplete Enterprise Architecture.
Our audit found a lack of consistent coordination between the Department
and component Enterprise Architecture efforts, which increases the risk that
the Department’s two-tiered approach could result in gaps within the
Department’s Enterprise Architecture.

       In the course of conducting this audit, and in reviewing previous audits
of DEA and FBI IT management, we found that the Department’s oversight
of component Enterprise Architecture efforts in general continues to be
inconsistent. Components have been developing Enterprise Architectures for
several years at considerable cost without ongoing and substantive
Department-level guidance or monitoring. The Department is not currently
providing direction to ensure that components’ Enterprise Architecture
efforts are consistent with, and will meet the needs of, the overall
Department Enterprise Architecture under development. The Department’s
two-tiered approach to Enterprise Architecture will require all major
components responsible for IT systems to develop Enterprise Architectures


                                    - 29 -
in order for the overall Department Architecture to present a clear and
comprehensive view of the Department’s IT environment. However, the
components have generally been working on their Enterprise Architectures
independently, without specific guidance or monitoring to ensure full
compatibility with the Department-level Enterprise Architecture when it is
developed.

      The Department has begun to improve its oversight and guidance of
components’ Enterprise Architecture efforts. For example, an Enterprise
Architecture Program Management Plan, completed in June 2005, discusses
the Department’s Enterprise Architecture organization, interaction between
the components and the Department, the need for a Department-wide
Enterprise Architecture tool, and components’ use of the FEAF. However,
more progress is needed, and we provide the following recommendations for
the Department.

Recommendations:

     We recommend that JMD:

    1. Complete the Department-wide Enterprise Architecture to ensure
       that IT investments are not duplicative, are well-integrated, are cost-
       effective, and support the Department’s mission.

    2. Provide Departmental guidance to components for the development
       and maintenance of Enterprise Architectures consistent with the
       guidance provided by the FEAF, the OMB, and the GAO.

    3. Track and review the planning, development, completion, and
       updating of component-level Enterprise Architectures.




                                    - 30 -
Finding 2: Information Technology Investment Management

     The Department of Justice is in the early stages of developing the
     ITIM processes required by the Clinger-Cohen Act. These
     processes include selecting, evaluating, and managing IT
     investments while ensuring that agency missions are being
     supported. The Department’s initial efforts to comply with
     Clinger-Cohen began in 2001, but progress has been limited. In
     2004, the Department developed an Information Technology
     Strategic Management (ITSM) Framework that should enable the
     Department to implement Department-level ITIM processes and
     properly oversee the components’ efforts. The Department
     expects its ITSM framework to lead to high-level IT leadership
     and centralization of IT functions, guide components that need
     assistance in implementing their own ITIM processes, and provide
     ITIM processes for smaller components that do not yet have
     them. The ITSM framework is also intended to result in
     integrating the components’ ITIM processes with the
     Department’s high-level ITIM processes. To fully comply with
     Clinger-Cohen, however, the Department must ensure that all IT
     investments follow effective selection, evaluation, and
     management practices. Due to the early stages and fragmented
     nature of the Department’s overall ITIM development, the
     Department risks making IT investments that are duplicative or
     that do not fully support the agency’s mission. Such risks will be
     greatly mitigated once the Department and its components
     establish and follow mature ITIM processes.

Department-level ITIM

      A key objective of the Clinger-Cohen Act is to ensure that agencies
implement processes for maximizing the value of IT investments and for
assessing and managing the risks of IT acquisitions. To accomplish this
objective, agencies must establish processes to ensure that IT projects are
being implemented at acceptable costs and within reasonable timeframes,
and that the projects are contributing to tangible, observable improvements
in mission performance. Additionally, OMB Circular A-130 requires each
federal agency to establish and maintain a capital planning and investment
control process for IT. The Department is in the early stages of developing
Department-wide ITIM processes.

      The Department and its components made various attempts to
develop ITIM policies and procedures under Clinger-Cohen beginning in


                                   - 31 -
2001, but progress has been slow. In October 2004, the Department issued
a framework for developing ITIM processes, called IT Strategic Management
(ITSM). The purpose of the ITSM framework is to:

      •   consolidate the processes of IT policy and planning into a
          coordinated IT planning and management effort;

      •   serve as a communication vehicle for delineating the relationships
          between Departmental and component IT planning and
          management activities;

      •   define products for which guidance and performance measures can
          be developed; and

      •   provide a context for building tactical project plans to operate IT
          selection, evaluation, and management.

Once the processes created through the ITSM framework are fully
developed, the Department expects that the components’ ITIM processes
and functions will be integrated within the Department’s overall ITIM
structure. The Department-level ITIM will then support all components
regardless of size, funding, or resources. In order to achieve this objective
and ensure coverage of all IT projects within the Department, components
that have or are developing ITIM processes will be required to incorporate
the Department’s ITSM framework into their own frameworks.

      The following tables summarize Clinger-Cohen and OMB A-130
requirements and how the ITSM framework is to meet them.




                                     - 32 -
Clinger-Cohen Requirements                  ITSM Framework Characteristics

Provide for selection,                      A framework that aligns with the
management, and evaluation of               OMB Investment Management
investments.                                Process Model for the selection,
                                            control, and evaluation of
                                            investments. 10

Integrate with budget, financial,           An IT Funding and Architecture
and program management                      Phase that integrates OMB IT
processes.                                  submissions with the Department
                                            budget processes.

Include minimum performance                 An IT Strategic Planning Phase that
criteria for comparing and                  considers strategic alternatives,
prioritizing alternative investment         technical alternatives, and
projects.                                   investment alternatives.

Identify investments with shared            An Investment Planning Process for
benefits of costs for other                 Enterprise Architecture that
agencies.                                   develops Enterprise Architecture
                                            with Federal partners to provide
                                            optimal solutions.

Identify quantifiable                       Performance measures to be
measurements for net benefits               developed for investments.
and risks of the investment.

Provide the means for senior                An Investment Oversight Phase with
management to obtain timely                 tools and mechanisms to review
information regarding the                   processes for reporting timely
progress of an investment.                  information to senior management.

Source: Department ITSM Framework




       10
          The OMB Investment Management Process Model establishes an analytical
framework for linking IT investment decisions to strategic objectives and business plans in
federal organizations. Federal organizations are to use this model in developing their own
ITIM frameworks.

                                           - 33 -
OMB Circular A-130                   ITSM Framework
Requirements                         Characteristics

Monitor investments.                 An IT Oversight Phase for
                                     monitoring investments, and a
                                     web-based Dashboard to
                                     summarize the status of
                                     investments. (The Dashboard is
                                     discussed later in this report.)

Prevent redundancy of existing or    A Strategic Planning Process that
shared IT capabilities.              analyzes the Department’s
                                     capability needs and develops
                                     strategies for meeting these needs,
                                     using non-redundant technologies.

Demonstrate the impact of            An Investment Planning Process
alternative IT investment            that considers alternative technical
strategies and funding levels.       and resource strategies.

                                     An IT Funding and Architecture
                                     Phase that works in conjunction
                                     with the Budget Process to
                                     optimize funding levels.

Identify opportunities for sharing   An Investment Planning Process for
resources and consider their         Enterprise Architecture and Human
inventory of information as          Capital, which includes the
resources.                           development of transition
                                     strategies for optimizing technical
                                     Departmental assets and human
                                     capital.

Source: Department ITSM Framework

      To assist organizations with developing ITIM processes, the GAO
developed ITIM: A Framework for Assessing and Improving Process Maturity,
which provides a method for evaluating how well an agency is selecting and
managing its IT resources. This framework is built around the
select/control/evaluate approach described in Clinger-Cohen. The most
current version, issued in 2004, is a maturity model composed of five




                                     - 34 -
progressive stages. 11 Appendix 4 outlines the GAO framework. We intended
to use the GAO ITIM framework to evaluate the status of the Department’s
ITIM but did not do so because of the Department’s limited progress in
establishing its ITIM processes. Instead, we examined the Department’s
ITSM framework to determine whether it would allow for the development of
effective ITIM processes.

      Since 2002, the Department has worked on various policies and
procedures related to developing a Department-wide ITIM. In addition to
the Department’s ITSM framework, the Department created a web-based
“Dashboard” tool to show IT investment information and status, an IT
Strategic Plan to set IT strategic goals, and a Department Executive Review
Board (DERB) Charter to provide oversight for components’ IT investments.
A discussion of the ITSM framework and the other initiatives follows.

Department IT Strategic Management Framework

       ITSM Phases

      The Department ITSM Framework is designed to establish a
Department-wide ITIM process in three phases: IT Planning, IT Funding and
Architecture, and IT Investment Oversight.

       •    The IT Planning Phase is to establish the IT strategies and priorities
            through the development of an IT Strategic Plan and then build on
            those strategies through the development of an IT Investment Plan.

       •    The IT Funding and Architecture Phase builds from the IT Planning
            Phase. The IT Investment Plan is used to formulate a budget, while
            the architecture portion of the phase develops a “conceptual
            architecture” to guide project development. The main product of
            the IT Funding and Architecture Phase is a funded enterprise
            portfolio.

       •    The IT Investment Oversight Phase monitors the progress of
            development and implementation of the Department’s IT
            investments. This phase consists of a continuing evaluation of the
            Department’s IT portfolio to determine whether investments should
            be made, existing systems should continue to operate, or systems
            should be eliminated.



       11
           To attain a higher stage of maturity, an agency must meet certain requirements
for that stage in addition to meeting all of the requirements for the previous stages.

                                          - 35 -
      As shown in the following ITSM framework model, the three phases
are applied to business cycles and are supported by core processes and
products, an enterprise portfolio, and performance measures. A discussion
of the Department’s efforts to implement the model follows. 12



                                        IT Strategic Management (ITSM) Framework – Framework Model

                         ITSM Phases
                                                            IT Planning Phase                         IT Funding & Architecture Phase                         IT Investment Oversight Phase
                                ITSM Business Cycle
                                                                                 Planning Year
                                                                                                                                        Budget Year                Operation Years                    +
                                                       OCT - DEC         JAN - MAR            APR - JUN      JUL - SEP
                                                                                                      Select                                                               Control                 Evaluate
            IT S M C ore P roc esse s & P rod ucts




                                                                   DOJ IT                 DOJ IT                   OMB Submission               Conceptual Architectures              Formal
                                                                Strategic Plan        Investment Plan             & Candidate Portfolio          & Enterprise Portfolio              Acceptance


                                                     Strategic Planning Investment Planning          Budget Submission          Pass-back and Spend Plan      Tier I:                             Evaluation
                                                           Process            Process                    Process                        Process               OCIO Dashboard Process               Process

                                                                                                                                                              Tier II:
                                                                                                                                 Capability Architectures
                                                                                                                                                              Project Oversight Process (POP)
                                                                                                                                         Process

                                                                                                                                                              Tier III
                                                                                                                                                              Executive Oversight Process


                                        ITSM Continuous Integrated Processes

                                                                                                                    Portfolio Management
                                                                                                                    Enterprise Architecture
                                                                                                                         Human Capital
                                                                                                                          IT Security
                                                                                                                            E-Gov
                                                                                                                  Infrastructure Management
                                                                                                                     Business Operations

                                                                                                                                                                                      DOJ Office of the CIO


 Source: Department of Justice, Office of the Chief Information Officer




       12
                          For a summary of the ITSM Continuous Integrated Processes, see Appendix 9.

                                                                                                                  - 36 -
      IT Planning Phase

       The Strategic Planning Process, part of the IT Planning Phase,
identifies the long range goals, objectives, strategies, and measures of
project success. IT strategic planning occurs early in the ITIM process
planning years and results in an IT strategic plan. The Department’s IT
Strategic Plan was first created in 2002 and revised in 2005. The plan
contains priorities that drive management and investment decisions for the
remainder of the strategic management cycle. Strategic planning also
considers business priorities, information use and management
requirements, technology integration, and other strategies to migrate the
current IT structure to the target structure. Furthermore, the Strategic
Planning Process assesses the current state of IT programs, identifies
mission requirements for IT, and defines the goals to be pursued and the
measures to be used to monitor progress. This strategy guides the
development of the Department IT portfolio and component investment
plans.

      Prior to FY 2004, investments were not selected or funded in
consideration of developing a cohesive Department IT portfolio. Instead, the
Department reviewed component concept proposals and budget requests to
ensure alignment with the 2002 IT Strategic Plan and IT Guiding Principles. 13
The principles were to be applied Department-wide.

      In FY 2004, the Department began implementing the ITSM
framework’s IT Planning Phase for the FY 2005 budget. Each component
met to discuss the Department’s IT needs that were to be integrated into
component IT systems and concept proposals. Since 2004, review meetings
have been held with components proposing major IT investments. While no
new Department-wide IT Strategic Planning policies or procedures were
issued in FY 2004, the Department took the following actions for Strategic
Planning:

      •    updated a Strategic Planning Guide from 2003 describing the
           methodology and processes used to complete the tasks associated
           with developing the IT Strategic Plan;

      •    completed an IT Annual Needs Report based on input from the
           components;



      13
           Concept proposals explain a component’s investment plan and objective.




                                          - 37 -
      •   created an IT Annual Needs Chart to outline major IT issues that
          will surface over the next couple of years; and

      •   updated the IT Strategic Plan after 3 years to include performance
          measurement criteria and align the plan with the Department’s
          mission.

      The Department completed its IT Investment Plan in May 2005 and is
currently updating the plan for submission to the OMB for the next budget
cycle. In FY 2006 and beyond, the Department plans to work on processes
and products related to the Strategic, Transition, and Investment plans and
develop a Human Capital Plan.

      IT Strategic Planning Process

      The Department has recognized the need to focus more attention on
IT management and information sharing. As a result, the Department has
decided to take a more proactive role in matching technology to identified
business needs. Instead of a decentralized approach whereby only the
Department components develop ITIM processes, the Department wants to
develop a more centralized approach to IT management by developing
Department-level ITIM processes. This approach requires components
without an ITIM system to use the Department’s ITSM framework, while
components with established ITIM processes will need to integrate the
Department’s ITIM processes with their own. The plan’s three main goals
are to provide: (1) information sharing among all components, (2) a reliable
and cost-effective infrastructure to conduct Department-wide electronic
business, and (3) management processes and policies to support and
improve the Department’s IT performance and continuity.

      The Department’s IT Strategic Plan is based on the 2003 IT Strategic
Planning Guide. The strategic goals listed in the IT Strategic Plan include the
following.

      •   Information sharing: to provide quality electronic solutions that
          allow mission information to be shared in a timely manner inside
          and outside the Department.

      •   Infrastructure and Security Services: to provide a seamless,
          reliable, secure, and cost-effective infrastructure for conducting
          Department-wide electronic business.

      •   IT Management: to establish, institute, and improve management
          processes and policies to support and improve the Department’s IT
          performance and process.

                                      - 38 -
     Investment Planning Process

      The Investment Planning Process identifies specific investments
needed to achieve the strategic priorities of the Department consistent with
the IT Strategic Plan, and seeks to create an investment plan that balances
business priorities and funding resources. Using the IT Strategic Plan and
the investment plans from portfolio managers and the components, IT
planners and business leaders prioritize needed investments. The
Department IT Investment Plan is the result of this investment planning.
The Investment Plan identifies the recommended IT investments to support
the IT Strategic Plan and the investment performance measures that define
the expected business results. The Investment Planning Process provides a
method for converting the strategic goals and objectives defined by the IT
Strategic Plan into a set of prioritized investments for the future.

       For the Investment Planning Process, the Department developed a
draft investment process guide, an investment plan with performance
metrics, portfolio strategies, and a Transition Planning Process Guide.
Additionally, IT questionnaires and surveys from component CIOs were
collected to determine human capital needs. The development of the Human
Capital Plan is ongoing and involves performing the analysis, planning, and
organizational transitions needed to staff and manage IT investment
portfolios and approved projects. Additionally, the skills and staffing needed
to implement the IT initiatives to be funded are assessed, and the actions
required to budget for, reassign, acquire, develop, and retain human
resources are performed. To date, the Department appears to be making
progress toward completing the Investment Planning Process.

     IT Funding and Architecture Phase

       The IT Funding and Architecture Phase of the Department’s ITSM
framework consists of ongoing processes that establish the budget and
architectures to be used by the Department and its components in
developing, operating, or terminating IT projects. Funding for IT projects
follows the same process the Department uses to obtain funding for all other
functions: the Budget Submission Process. This process converts the IT
Investment Plan into a fully documented and properly formatted IT budget
request ready to be combined with the Department’s full budget request.
This involves the development of investment business cases and other
documentation from Department staffs, components, and other sources, and
the integration of these individual investments into a unified portfolio for
review by the Department’s leadership and submission to OMB.




                                    - 39 -
       The subsequent pass-back from OMB and Spend Plan Process, as part
of the IT Funding and Architecture Phase, leads proposed investments
through the budget process to become incorporated into the enterprise
portfolio. This occurs through three steps: (1) the OMB pass-back, which
provides the Department with initial OMB budget decisions; (2) the
submission of the final Department budget, which is then incorporated into
the fiscal year budget by the OMB; and (3) the revision of the IT candidate
portfolio and preparation of spending plans after the fiscal year budget is
enacted. Once funded, the candidate investments are moved to the
enterprise portfolio for investment management. The enterprise portfolio
contains all of the funded IT investments for the Department.

      In the Capability Architectures process, project managers work toward
converting the strategies defined in the strategic planning process into an
overall Enterprise Architecture. Capability architectures are used by the
project managers to drive the development of solution architectures for
investment projects. These capability architectures, which focus on
providing Enterprise Architecture capabilities for Department-wide support of
business needs, are also used to review solution architectures to ensure
compliance with initial conceptual architectures.

       According to Department officials, the objective for Enterprise
Architecture efforts in FY 2003 and prior years was to build a foundation to
develop a mature Enterprise Architecture. Business, System, and Data
Architectures were developed along with an Enterprise Architecture
Management Systems Tool. For the FY 2004 budget, requests for
investment and project funding were submitted to the Department by
project managers. The Attorney General’s IT Budget Guidance, which is a
memorandum initiating the annual Department budget process, was also
developed for funding the Department’s IT projects. For FY 2005, an
integrated budget submission process was developed and, according to
Department officials, this process allowed the Department to work closely
with the JMD Budget Staff to integrate Department IT needs into the budget.
For FY 2006 and future years, the Department intends to institutionalize an
integrated budget submission process. However, the actual processes and
policies have not yet been determined. Additionally, a Budget Submission
Guide and a performance measurement document are still needed to
complete the IT Funding and Architecture Phase.

     IT Oversight Phase

      As mandated by Clinger-Cohen, each agency head must establish
ITIM processes and provide oversight by determining: (1) which employees
should perform certain IT management functions; (2) if certain IT functions

                                   - 40 -
should be contracted to outside sources; (3) which IT missions, processes,
and administrative practices must be revised to support each other in
making significant investments; and (4) if the information security policies,
procedures, and practices are adequate.

     In complying with the oversight responsibilities outlined in Clinger-
Cohen, Department Order 2880.1A stated that the Department’s CIO is
responsible for:

      •   developing and implementing Department ITIM policy and
          guidance;

      •   confirming that each Department component has a decision-making
          infrastructure and appropriate ITIM processes in place to make
          sound business investments based on thorough planning, risk
          management, project prioritization, and funding availability;

      •   assisting components in developing and implementing ITIM
          processes and providing value-added services or information on
          cross-cutting issues or investments;

      •   ensuring Department IT investments are consistent with
          Department IT strategic planning, budget, acquisition, and program
          management decisions;

      •   supporting the IT Investment Board and CIO Council in performing
          their duties;

      •   performing oversight of components’ IT investments and ITIM
          processes through the annual budget process, independent
          technical assessments, and regularly scheduled briefings on the
          components’ portfolios and the individual IT investments within the
          portfolios;

      •   providing for coordinated or centralized management of cross-
          cutting IT investments to ensure system and data compatibility;

      •   incorporating component investment portfolios into a Department
          corporate IT investment portfolio that supports Departmental
          priorities; and

      •   advising the Attorney General on initiating, continuing, modifying,
          or terminating IT investments.




                                     - 41 -
      In response to Order 2880.1A, issued in March 2001, 29 of the 34
major components required to submit ITIM processes to the Department
complied by September 2002. 14 Five components did not submit an ITIM
process for approval, while another five components that were not required
to submit a process submitted one. None of the ITIM processes were fully
developed. According to a Department IT official, the five components that
did not submit ITIM processes were small and did not have significant IT
investments. Initially, the Department tracked whether the components
submitted ITIM processes and whether the processes were approved by the
Department’s CIO. The Department responded to the components, stating
that their ITIM processes would be evaluated and either accepted or
rejected. The Department then provided suggestions for improving their
processes. In addition, the Department surveyed the components in May
2003, nearly 1 year after the ITIM processes were submitted, to determine
how the components had progressed. According to the Department CIO, the
components were having a difficult time developing their ITIM processes and
progress was slow. In JMD’s case, its efforts begun in 2002 to develop
component-level ITIM processes were abandoned in 2004 as it focused on
developing the ITSM framework for the Department’s overall ITIM effort.
The Department is planning to issue a revised version of Order 2880.1A
which is expected to better outline component responsibility as well as the
Department’s oversight role. The Department does not have an estimated
date for issuance of the revised version.

      For the components considered by the Department to be so small that
it would not be beneficial to spend time developing a component-based ITIM
process, yet they have IT systems necessitating an ITIM process, the
Department developed what it refers to as an “ITIM-lite” process to facilitate
decision making throughout the life cycle of an IT project. The purpose of
ITIM-lite was to allow management to:

       •    select the most worthwhile projects through systematic review of
            new and ongoing investments,

       •    control the investments to ensure they are appropriately managed
            to deliver the benefits promised, and

       •    evaluate the investments to validate that they deliver what is
            expected.



       14
         28 C.F.R. lists 35 components, but we did not include the Office of International
Programs because it is no longer part of the Department of Justice.

                                          - 42 -
The Department abandoned ITIM-lite and in 2004 began developing its
Department-wide ITIM processes, which are expected to encompass the
smaller components.

      The Department has not recently been overseeing the development of
components’ ITIM processes. Instead, the Department decided to
concentrate its oversight attention on components’ actual investments.
The one exception, according to Department officials, is the tracking of the
FBI’s development of ITIM processes because the FBI accounts for about
50 percent of the Department’s IT budget. Oversight of the development of
other components’ ITIM processes was abandoned in 2002. The Oversight
Phase in the ITSM Framework, as discussed below, involves monitoring
components’ IT projects rather than overseeing or approving components’
ITIM processes or the development of the processes. According to the
Department CIO, oversight of the components’ ITIM processes is currently
performed on an ad hoc basis.

      According to the ITSM framework, project oversight will occur during
the operational years of IT projects and will be divided into three tiers: the
Department Dashboard Process (Tier 1), the Project Oversight Process
(Tier 2), and the Executive Oversight Process (Tier 3).

        The Department Dashboard (Tier 1) is a query tool that provides
users with the ability to access a database of Department components’ IT
systems using a web browser interface. The Dashboard is designed to
provide the Department, component CIOs, and project managers with a
“quick reference” on the current cost, schedule, performance, and risks for
major or highly visible component investment projects that are in the
Department’s IT portfolio. Projects are identified as being in a state of
completion, planning, operation, or on hold to be reviewed by the
Department CIO. The Department Dashboard gives component project
managers and reviewers access to IT project data. Data in the Dashboard
includes project cost, schedule performance, and risks. The Dashboard is
accessible through the Department Intranet.

       Project managers record the risks, milestones, and costs of projects
into the Dashboard. Based on the risks associated with the project, the
project manager rates the status of the project as red, yellow, or green.
Issues regarding excessive cost or funding shortfalls are rated red. Issues
with the potential to have excessive costs or funding shortfalls are rated with
a yellow status. If there are no excessive cost issues, projects are rated
green. Department officials then review the project information in the
Dashboard, paying special attention to projects designated as red or yellow.
Project managers are required to update the status of their projects by the

                                    - 43 -
10th business day of each month. However, the project managers can bring
a project to the attention of the Department CIO at any time. The
Dashboard flags any changes made in baseline data and then displays the
project with a red flag. A Department Dashboard official can then follow up
with inquiries to the project managers. The Dashboard categorizes projects
by component. Once the Dashboard is reviewed by the component CIO and
the Dashboard Policy Advisor, the Department CIO reviews it. The CIO then
holds meetings to discuss the status of projects. Currently all components,
with the exception of the FBI, are connected to the Dashboard, which covers
approximately 80 investments. Project managers are involved in the
process through training sessions, a user guide, and one-on-one meetings as
necessary.

       The Project Oversight Process (Tier 2) will consist of approximately 12
to 15 projects that are selected from those in the first tier for review and
face-to-face meetings with project managers to make sure the projects are
meeting their expected performance. The projects selected for this tier are
those that may be high-risk, over budget, politically sensitive, or otherwise
demand closer scrutiny. A Department official explained that this is the level
at which members of the IT and Policy and Planning Staff in the Department
will become directly involved.

         In the third tier, the Executive Oversight Process, approximately six
projects will be selected from Tier 2, based on Department or congressional
priorities, for evaluation from an investment, business, and return-on-
investment perspective. This process is carried out by the Department
Executive Review Board (DERB) assembled at the level of the CIO,
Controller, and Deputy Attorney General. This process began as a pilot
program, but its scope is now being expanded to include the Department’s
entire portfolio.

       According to the GAO’s ITIM framework, instituting IT investment
boards is a key component in the IT investment management process
because the boards define the membership, guiding policies, operations,
roles, responsibilities, and authorities for each designated board and, if
appropriate, each board’s support staff. Prior to the establishment of the
DERB in 2004, various committees and boards were formed to facilitate the
sharing of information between the Department and its components,
including the following.

      •   The CIO Council, comprised of representatives of the major
          components, monitored cross-cutting investments and provided




                                    - 44 -
           technical expertise to the Department CIO and Senior Management
           Council. 15

      •    The Enterprise Architecture Committee, comprised of the Chief
           Architects of the major components, held monthly meetings with
           the CIO Council to discuss investment progress.

      •    The Data Architecture Sub-Committee ensured that data standards
           conformed with the Enterprise Data Architecture. Specifically, the
           committee supported transitioning from stovepiped information
           systems to a shared data environment.

By the end of FY 2003, all but the CIO Council were disbanded and replaced
with the DERB, which is now responsible for reviewing the major IT
investments of all components.

       A DERB official explained that investments are selected for review
based on an investment’s budget or the mission-critical nature of the
investment. In terms of budget, two types of projects will be reviewed:
projects that are to run for more than 10 years and funded at more than $20
million, or short-term projects running for about 1 year with a budget of at
least $15 million. Projects considered to be mission-critical or strategically
important for the Department are reviewed, even though they may not be
costly, because of the high risk involved with meeting the Department’s
mission. The DERB’s Department-level oversight occurs in meetings where
members discuss the investments as well as the planning, budget, risk, and
assessment of current component projects. The first official DERB meeting
was in November 2004 and since its inception, the DERB has met
approximately five times. We found that while the DERB contributes to the
cohesive nature of the ITSM framework, it is neither as comprehensive in its
functions nor as capable of devoting sufficient time to individual projects as
the disbanded boards that were designed to be tailored to specific IT
resources.

Conclusion

      The Clinger-Cohen Act and OMB Circular A-130 require agencies to
ensure that IT investments are made with an overall focus on the agency’s
mission and with senior management oversight. When ITIM processes using
a select, control, and evaluate methodology are performed properly, the


      15
         The CIO Council includes the designated CIOs who were represented on the
Department’s Strategic Management Council, including the Federal Bureau of Prisons, FBI,
DEA, and Civil Division.

                                         - 45 -
agency should reduce the risk and maximize the benefits from IT
investments.

       In March 2001, the Department issued Order 2880.1A, which required
its components to implement ITIM methodologies and submit these
methodologies for review by the Department CIO. The Department also
provided guidance for developing ITIM processes. The Department planned
to rely on the components’ submissions to meet ITIM requirements. While
most components submitted ITIM plans, progress was slow to implement
ITIM processes. This strategy did not provide the components with a clear
vision of how they should create their ITIM processes to meet the overall
mission of the Department, as the Department did not have a fully
developed IT Strategic Plan or Enterprise Architecture that would outline the
overall mission of the Department and identify the IT investments that
should be made to achieve that mission.

      In 2004 the Department developed the ITSM framework, which was
designed to lead to Department-level ITIM processes. In our judgment, the
ITSM framework can result in fully mature ITIM processes if carried out
properly. The Department’s ITSM Framework includes the funding,
oversight, and planning requirements outlined in the Clinger-Cohen Act. The
Department has made some progress in implementing the processes
outlined in its ITSM. Still, not all of the processes have been implemented.
For example, the Investment Planning Guide and enterprise portfolio are two
key elements of the ITSM that are not yet fully implemented. Without these
elements, the Department cannot provide components with a complete
picture of what investments should be pursued. Additionally, it is not clear
that all of the Department’s IT investments will be adequately covered by
the ITSM.

      We believe that if the Department’s ITSM is successfully implemented,
mature ITIM processes will result. However, at this early stage it is difficult
to assess whether all the components will have developed compatible ITIM
processes or be covered adequately by the Department’s ITIM processes.
Major components, such as the DEA and FBI, are well ahead of the
Department and its ITSM development.

       The ultimate success of the Department’s current efforts to develop
mature ITIM processes is difficult to evaluate at this early stage. The effort
is likely to take years, and the Department has no firm schedule for
developing its ITIM processes or ensuring the development of compatible
component-level ITIM processes. In the meantime, the Department risks
investing in or maintaining systems that are duplicative or may need to be


                                    - 46 -
replaced, altered, or eliminated if they do not align with the mission and the
goals of the Department.

Recommendations
      We recommend that JMD:

      4.   Fully implement the phases outlined by the ITSM framework to
           ensure that all Department IT investments are covered by an ITIM
           process.

      5.   Ensure that components requiring ITIM processes develop them.

      6.   Provide assistance to components in developing and implementing
           ITIM processes and providing value-added services.

      7.   Establish a clear schedule for the completion of the ITSM
           framework and the completion of a mature ITIM process.




                                    - 47 -
                   STATEMENT ON COMPLIANCE
                  WITH LAWS AND REGULATIONS

       We have audited the Department’s management of Enterprise
Architecture and IT investments. The audit was conducted in accordance
with Government Auditing Standards. As required by the standards, we
reviewed management processes and records to obtain reasonable
assurance about the Department’s compliance with laws and regulations
that, if not complied with, in our judgment could have a material effect on
Department operations. Compliance with laws and regulations applicable to
the Department’s handling of Enterprise Architecture and IT investments is
the responsibility of the Department’s management.

      Our audit included examining, on a test basis, evidence about laws and
regulations. The specific laws and regulations against which we conducted
our tests are contained in the relevant portions of the Clinger-Cohen Act of
1996, OMB Circular A-11 § 300, and OMB Circular A-130.

     The Clinger-Cohen Act of 1996:

     •   as applied to Enterprise Architecture, requires the CIOs for major
         departments and agencies to develop, maintain, and facilitate the
         implementation of architectures as a means of integrating business
         processes and agency goals with IT; and

     •   as applied to ITIM, defines requirements for capital planning and
         control of IT investments and mandates a select/control/evaluate
         approach that federal agencies must follow.

     OMB Circular A-11, § 300:

     •   as applied to ITIM, establishes the criteria for completing Exhibits
         300, which is the format used to represent the purpose for the
         proposed investment to agency management and the OMB.

     OMB Circular A-130:

     •   as applied to Enterprise Architecture, requires agencies to create an
         Enterprise Architecture Framework; once a framework is
         established, an agency must create and maintain an Enterprise
         Architecture; and




                                    - 48 -
     •   as applied to ITIM, defines requirements for capital planning and
         control of IT investments using a select/control/evaluate approach.

      As noted in the Finding and Recommendations section of our report,
the Department has not yet established an Enterprise Architecture or ITIM
processes and therefore is not in compliance with the Clinger-Cohen Act,
OMB guidance, and Department regulations. However, the Department is
actively developing and implementing new frameworks aimed at establishing
an Enterprise Architecture and ITIM processes in the future. Also, some
Department components, such as the FBI and the DEA, have made progress
in developing component-level Enterprise Architectures and ITIM processes.




                                   - 49 -
              STATEMENT ON INTERNAL CONTROLS

      In planning and performing our audit of the Department’s
management of its Enterprise Architecture and IT investments, we
considered the Department’s internal controls for the purpose of determining
our audit procedures. This evaluation was not made for the purpose of
providing assurance on the internal control structure as a whole. However,
we noted certain matters that we consider to be reportable conditions under
Government Auditing Standards.

       Reportable conditions involve matters coming to our attention relating
to significant deficiencies in the design or operation of the internal control
structure that, in our judgment, could adversely affect the Department’s
ability to manage its Enterprise Architecture and IT investments. During our
audit, we identified the following internal control concerns.

      •   The Department has not yet completed an Enterprise Architecture
          to drive its IT investments.

      •   The Department has not yet implemented the control and evaluate
          processes necessary to complete its IT investment capability.

      •   The Department does not provide adequate oversight of
          components’ Enterprise Architecture and ITIM efforts.

      Because we are not expressing an opinion on the Department’s internal
control structure as a whole, this statement is intended solely for the
information and use of the Department in managing its Enterprise
Architecture and IT investments. This restriction is not intended to limit the
distribution of this report, which is a matter of public record.




                                    - 50 -
                                                               APPENDIX 1

                OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

       The objective of the audit was to determine whether the Department is
effectively managing its Enterprise Architecture and IT investments.

Scope and Methodology

      The audit was performed in accordance with Government Auditing
Standards, and included tests and procedures necessary to accomplish the
audit objectives. We conducted work at the Department and its Justice
Management Division in Washington, D.C.

      To perform our audit, we interviewed Department and GAO officials,
and reviewed documents related to Enterprise Architecture and IT
management policies and procedures, project management guidance,
strategic plans, IT project proposals, budget documentation, organizational
structures, and prior GAO and OIG reports.

      To determine the Department’s progress in developing an Enterprise
Architecture, we used the GAO’s Enterprise Architecture Management
framework as criteria. As part of our assessment of the Department’s
Enterprise Architecture, the Department completed a survey developed by
the GAO to identify which of the core elements in the GAO’s Enterprise
Architecture Management framework were implemented. We reviewed the
survey and obtained supporting documentation for the core elements that
the Department said were implemented. We did not test or review
documentation for the core elements that the Department considered not
implemented or partially implemented.

      To determine whether the Department is effectively managing its IT
investments, we reviewed the GAO’s ITIM framework in relation to the
Department’s ITSM and also the Department’s regulations, IT polices and
procedures, program managers’ presentations, meeting minutes, training
agenda, and other information. Based on interviews and our review of
documentation provided by Department officials, we determined the status
of their efforts to develop ITIM processes.

      To determine whether the Department was providing effective
oversight to its components’ Enterprise Architecture and ITIM efforts, we


                                   - 51 -
reviewed DOJ Order 2880.1A and determined through interviews and
documentation the extent to which those efforts were formally guided and
monitored.




                                  - 52 -
         APPENDIX 2




- 53 -
                          DEPARTMENT OF JUSTICE
                 OFFICE OF THE CHIEF INFORMATION OFFICER


                       Chief
                       Information
                       Officer


                           Immediate Office
                            of the Director


                           Director, Budget Director



Deputy CIO, E-         Deputy CIO, IT            Deputy CIO,             Deputy CIO,               Deputy CIO,
 Government               Policy &                Enterprise             Operations                IT Security
Services Staff         Planning Staff           Solutions Staff
                                                                        Services Staff                Staff


       Office of the          Office of the             Office of the          Office of the           Office of the
         Director               Director                  Director               Director                Director



       E-Government           Architecture              Contracts               Computer               Information
          Services              Services               Management                Services                Security
                                                         Services                                        Services


         Wireless            Business Process           JABS Program             Systems
                              Reengineering              Management
       Management                                                               Technology
                                 Services                   Office
         Services                                                                Services


                              Investment               JCON Program           Telecommunications
                                                                                    Services
                              Management                Management
                                                           Office
                                Services


                                Policy and               Systems
                             Planning Support
                                                       Development
                                 Services
                                                         Services



Source: Justice Management Division




                                                - 54 -
                                                          APPENDIX 3
                             ACRONYMS
ATF     Bureau of Alcohol, Tobacco, Firearms, and Explosives
CFR     Code of Federal Regulations
CIO     Chief Information Officer
CTO     Chief Technology Officer
DEA     Drug Enforcement Administration
DERB    Department Executive Review Board
DOJ     Department of Justice
EA      Enterprise Architecture
EAC     Enterprise Architecture Committee
FBI     Federal Bureau of Investigation
FEAF    Federal Enterprise Architecture Framework
FEAMS   Federal Enterprise Architecture Management System
FY      Fiscal Year
GAO     Government Accountability Office
IRM     Information Management Resources
IT      Information Technology
ITIM    Information Technology Investment Management
ITSM    Information Technology Strategic Management
JCON    Justice Consolidated Office Network
JMD     Justice Management Division
OCIO    Office of the Chief Information Officer
OIG     Office of the Inspector General
O&M     Operations and Maintenance
OMB     Office of Management and Budget
PKI     Public Key Infrastructure
SDLC    Systems Development Life Cycle
TRM     Technical Reference Model
UFMS    Unified Financial Management System



                                  - 55 -
                                                                                                           APPENDIX 4

        SUMMARY OF ENTERPRISE ARCHITECTURE MANAGEMENT FRAMEWORK’S
       MATURITY STAGES, CRITICAL SUCCESS ATTRIBUTES, AND CORE ELEMENTS
                                                                                                                     Stage 5:

                                                                                      Stage 4:                       Leveraging
                                                            Stage 3:                  Completing EA products         the EA to manage
                                                            Developing EA
                                Stage 2:                    products                                                 change
                  Stage 1:      Building the EA
                  Creating EA   management
                  awareness     foundation
Attribute 1:                    Adequate resources          Written and approved      Written and approved           Written and approved
Demonstrates                    exist.                      organization policy       organization policy exists     organization policy
commitment                      Committee or group          exists for EA             for EA maintenance.            exists for IT
                                representing the            development.                                             investment
                                enterprise is responsible                                                            compliance with EA.
                                for directing,
                                overseeing, or approving
                                EA.
Attribute 2:                    Program office              EA products are under     EA products and                Process exists to
Provides                        responsible for EA          configuration             management processes           formally manage EA
capability to                   development and             management.               undergo independent            change.
                                maintenance exists.                                   verification and validation.   EA is integral
meet                            EA is being developed                                                                component of IT
commitment                      using a framework,                                                                   investment
                                methodology, and                                                                     management process.
                                automated tool.
Attribute 3:                    EA plans call for           EA products describe      EA products describe both      EA products are
Demonstrates                    describing both the “as     or will describe both     the “as is” and the “to-be”    periodically updated.
                                is” and the “to-be”         the “as is” and the       environments of                IT investments
satisfaction of
                                environments of the         “to-be” environments      enterprise, as well as a       comply with EA.
commitment                      enterprise, as well as a    of enterprise, as well    sequencing plan for            Organization head has
                                sequencing plan for         as a sequencing plan      transitioning from the “as     approved current
                                transitioning from the      for transitioning from    is” to the “to-be.”            version of EA.
                                “as is” to the “to-be.”     the “as is” to the “to-   Both the “as is” and the
                                EA plans call for           be.”                      “to-be” environments are
                                describing both the “as     Both the “as is” and      described in terms of
                                is” and the “to-be”         the “to-be”               business, performance,
                                environments in terms       environments are          information/data,
                                of business,                described or will be      application/service, and
                                performance,                described in terms of     technology.
                                information/data,           business,                 Business, performance,
                                application/service, and    performance,              information/data,
                                technology descriptions     information/data,         application/service, and
                                to address security.        application/service,      technology descriptions
                                                            and technology.           address security.
                                                            Business,                 Organization CIO has
                                                            performance,              approved current version
                                                            information/data,         of EA.
                                                            application/service,      Committee or group
                                                            and technology            representing the enterprise
                                                            descriptions address      or the investment review
                                                            or will address           board has approved
                                                            security.                 current version of EA.
Attribute 4:                    EA plans call for           Progress against EA       Quality of EA products is      Return on EA
Verifies                        developing metrics for      plans is measured         measured and reported.         investment is
satisfaction of                 measuring EA progress,      and reported.                                            measured and
                                quality, compliance, and                                                             reported.
commitment                      return on investment.                                                                Compliance with EA is
                                                                                                                     measured and
                                                                                                                     reported.


                                                       Maturation
       Note: Enterprise Architecture (EA)
       Source: Government Accountability Office
                                                                                                           APPENDIX 5

                                                            - 56 -
                    SUMMARY OF GAO ITIM FRAMEWORK

       The ITIM framework is a hierarchical model comprised of five maturity
stages. Each stage builds upon the lower stages and represents a step
toward achieving both stable and effective ITIM processes. A summary of
the five stages is presented below.

                      THE FIVE ITIM MATURITY STAGES




Source: Government Accountability Office

       Stage 1 describes the state of an organization prior to any framework
implementation and does not contain critical processes. Maturity stages 2
through 5 are composed of a series of critical processes, each of which must
be implemented and institutionalized for an organization to satisfy stage
requirements and advance to the next stage. The ITIM framework also
breaks down each critical process into a set of key practices. Key practices
are specific tasks and conditions that must be in place for an organization to
implement effectively the necessary critical processes. A summary of ITIM
critical processes for each maturity stage is presented in the following chart.




                                           - 57 -
                       CRITICAL PROCESS SUMMARIES




          Source: Government Accountability Office

       Four core elements comprise each critical process in the ITIM
framework. These elements indicate whether the implementation and
institutionalization of a process can be effective and repeated. The four core
elements outlined in the ITIM framework are: (1) purpose,
          (1) organizational commitment, (3) prerequisites, and (4)
                activities. The following chart illustrates the relationship
                between the four core elements.

                 THE FOUR CRITICAL PROCESS ELEMENTS




Source: Government Accountability Office



                                           - 58 -
      Each core element, except for the “purpose” core element, contains
specific key practices. The ITIM framework states that these key practices
are the attributes and activities that contribute most to implementing and
standardizing a critical process.




                                   - 59 -
                                                                     APPENDIX 6


               DEPARTMENT PROGRESS THROUGH STAGE 3 OF THE
             ENTERPRISE ARCHITECTURE MANAGEMENT FRAMEWORK


                       Core Elements                                 Status
                                                                             Not
                                                             Implemented Implemented
STAGE 2
Critical Attribute #1: Demonstrates Commitment
Adequate Resources                                                            9
Enterprise Architecture Governing Committees                                  9
Critical Attribute #2: Capability to Meet Commitment
Enterprise Architecture Program Office                           9
Appointment of Chief Architect                                   9
Enterprise Architecture Development Using a Framework,                        9
Methodology, and Automated Tool
Critical Attribute #3: Demonstrates Satisfaction of
Commitment
Enterprise Architecture Program Plan Development                 9
Security                                                         9
Critical Attribute #4: Verifies Satisfaction of Commitment
Enterprise Architecture Progress Measurement                                  9
STAGE 3
Critical Attribute #1: Demonstrates Commitment
Enterprise Architecture Development Policy                                    9
Critical Attribute #2: Capability to Meet Commitment
Enterprise Architecture Products Under Configuration
Management                                                                    9
Critical Attribute #3: Demonstrates Satisfaction of
Commitment
Develop “As-is,” “To-be,” and Transition Architectures                        9
Security                                                         9



                                               - 60 -
                       Core Elements                                 Status
                                                                             Not
                                                             Implemented Implemented

Critical Attribute #4: Verifies Satisfaction of Commitment
Measure and Report Enterprise Architecture Progress                           9
Source: Office of the Inspector General.




                                             - 61 -
                                                               APPENDIX 7

              THE THREE COMPONENTS OF THE ITIM PROCESS

     Select Phase

     In the Select phase of the capital planning and investment control
process, A-130 requires agencies to:

     •   determine whether the investment will support core mission
         functions;

     •   demonstrate a projected return on investment that is clearly equal
         to or better than alternative uses of available public resources;

     •   prepare and update a benefit-cost analysis for each information
         system through its life cycle;

     •   prepare and maintain a portfolio of major information systems;

     •   ensure consistency with federal, agency, and bureau Enterprise
         Architectures;

     •   ensure investments are not duplicative; and

     •   establish oversight mechanisms to ensure the continuing security,
         interoperability, and availability of systems and data.

     Control Phase

     In the Control phase of the capital planning and investment control
process, A-130 requires agencies to:

     •   institute performance measures and management processes that
         monitor actual performance compared to expected results;

     •   establish oversight mechanisms to determine whether information
         systems continue to fulfill ongoing and anticipated mission
         requirements;

     •   ensure that information systems meet established milestones,
         deliver intended benefits, meet user requirements, and identify and
         offer security protections;


                                   - 62 -
     •   prepare and update a strategy that identifies and mitigates risks
         associated with each information system; and

     •   ensure that agency Enterprise Architecture procedures are followed.

     Evaluate Phase

     In the Evaluate phase of the capital planning and investment control
process, A-130 requires agencies to:

     •   conduct post-implementation reviews of information systems and
         information resource management processes to validate estimated
         benefits and costs and document effective management practices
         for broader use;

     •   evaluate systems to ensure positive return on investment and
         decide whether continuation, modification, or termination of the
         systems is necessary to meet agency mission requirements;

     •   document lessons learned from the post-implementation reviews,
         and redesign oversight mechanisms and performance levels to
         incorporate acquired knowledge;

     •   re-assess an investment’s business case, technical compliance, and
         compliance against the Enterprise Architecture; and

     •   update the Enterprise Architecture and IT capital planning
         processes as needed.




                                    - 63 -
                                                                           APPENDIX 8
                                   PRIOR REPORTS

      We identified eight IT-related reports issued since
May 2000 by the GAO and the OIG that are relevant to this audit. In
May 2000, the GAO reported that although almost all federal agencies had
created some type of ITIM process, none had yet implemented stable
processes addressing all three phases of the select-control-evaluate
approach. 16 According to the GAO, one barrier to implementing reliable ITIM
has been the lack of specific guidance on the required processes.

      In February 2002, the GAO reported that the federal government as a
whole had not reached a mature state of Enterprise Architecture
management. 17 In particular, about 52 percent of federal agencies reported
having at least the management foundation that is needed to begin
successfully developing, implementing, and maintaining an Enterprise
Architecture, but about 48 percent of agencies had not yet advanced to this
basic stage of maturity. In November 2003, the GAO updated its 2002
report and concluded that little progress had occurred in agencies’ Enterprise
Architecture management. 18

       In April 2002, pursuant to the FY 2001 Government Information
Security Reform Act, the OIG issued a report on JMD’s Rockville and Dallas
Data Centers IT system. The report identified vulnerabilities with
management, operational, and technical controls. The report noted
significant vulnerabilities in the following areas:

       •    security policies and procedures,

       •    authorization of software changes,

       •    contingency planning,




       16
         The report is entitled Information Technology Investment Management: An
Overview of GAO’s Assessment Framework (GAO/AIMD-00-155), dated May 2000.
       17
          The report is entitled Information Technology, Enterprise Architecture Use Across
the Federal Government Can Be Improved (GAO-02-6), dated February 2002.
       18
         The report is entitled Information Technology, Leadership Remains Key to
Agencies Making Progress on Enterprise Architecture Efforts (GAO-04-40), dated November
2003.



                                          - 64 -
      •   password management,

      •   logon management,

      •   account integrity management, and

      •   system auditing management.

     The report stated that these vulnerabilities occurred because JMD
lacked sufficient guidance, adequate security polices, and effective
enforcement of policies.

       In December 2002, the OIG issued a report on the FBI’s Management
of IT Investments. The OIG reported that the FBI did not have a fully
developed enterprise architecture. Also, the FBI was not effectively
selecting, controlling, and evaluating its IT investments because it had not
fully implemented any of the critical processes necessary for successful ITIM.

      In May 2003, also pursuant to the FY 2001 Government Information
Security Reform Act, the OIG issued a report on JMD’s Justice
Communications Network IT system. The report identified vulnerabilities
with the IT system including management, operational, and technical
controls. The report noted significant vulnerabilities in the following areas:

      •   review of security controls,

      •   personnel security,

      •   contingency planning,

      •   hardware and system software maintenance,

      •   documentation,

      •   identification and authentication, and

      •   logical access controls.

      The report stated that these vulnerabilities occurred because JMD had
not implemented Department policies or updated security information and
procedures.




                                     - 65 -
      In June 2004, pursuant to the Federal Information Security
Management Act, the OIG issued an oversight and information systems
consolidated report. The report identified JMD vulnerabilities in the following
areas:

      •   vulnerability tracking capability and documented structured
          compliance evaluation procedures,

      •   oversight,

      •   creating specific goals,

      •   components documenting systems configuration management
          process for their systems,

      •   components adequately developing and distributing Rules of
          Behavior to all employees and contractors prior to the gaining
          access to the systems, and

      •   components reporting computer security incidents to the
          Department of Justice Computer Emergency Response Team in a
          timely manner.

       In September 2004, the OIG issued a report on the Drug Enforcement
Administration’s Management of Enterprise Architecture and IT Investments.
The OIG found that the Drug Enforcement Administration had completed
nearly 90 percent of the Enterprise Architecture Management Framework
criteria for meeting the second of five levels of maturity. Also, the Drug
Enforcement Administration had attained Stage 2 of the five maturity stages
outlined in the GAO ITIM Framework.




                                     - 66 -
                                                                        APPENDIX 9

                    DEPARTMENT ITSM FRAMEWORK’S
                  CONTINUOUS INTEGRATED PROCESSES

      According to the Department’s ITSM framework, IT Investments can
be categorized as development projects, Operations and Maintenance (O&M)
projects, and management processes. Development projects are those
which are either new or undergoing major enhancements. O&M projects are
considered steady state, meaning they are fully operational and continue to
operate without significant enhancements. Management processes are on-
going business operations as opposed to projects with a scheduled start and
end date. All three types of investments grow through defined models.
Development projects evolve through the Department System Development
Life Cycle (SDLC), O&M projects evolve through the Department Operations
Analysis Model, and management processes mature according to the
Department Process Maturity Model.

      The SDLC Model is used to manage system projects. The SDLC,
established in 2003, has not yet been updated. According to the ITSM
framework, the SDLC will be updated and streamlined to provide the
sequence of activities that are needed to support Department-wide project
management, oversight, and performance management of development
projects. The SDLC will be used to compute the earned value of investment
projects as they progress through the system development phases. 19
According to a Department official, the current version of the SDLC is being
modified to incorporate additional development process models and perform
process streamlining; however, the existing SDLC is still used by
components and is considered sufficient.

        ITSM Business Cycle

      The framework phases are applied to the ITSM Business Cycle, which
is based on the OMB 3-year budget cycle. The ITSM Business Cycle spreads
beyond 3 years to reflect multiple operating years for development and
subsequent operations and maintenance of investments. The framework
consists of select, control, and evaluate processes. The IT Planning Phase
and the IT Funding and Architecture Phases, which occur during the planning
year and budget year, equate to the select process. The IT Investment
Oversight Phase, which occurs in multiple operation years, equates to the
control and evaluate processes.

   19
      The SDLC consists of 10 phases projects must go through to be maintained and
reviewed.

                                        - 67 -
     ITSM Core Processes and Products

     The ITSM framework phases are composed of core interlocking
processes that perform the business of each phase by passing core products
from one core process to another. Each core product and process supports
the Department enterprise portfolio.

     ITSM Continuous Integrated Processes

      The core products of the ITSM framework are the culmination of
contributions from other Department business areas: (1) portfolio
management, (2) Enterprise Architecture, (3) human capital, (4) information
security, (5) E-Gov, (6) infrastructure management, and (7) business
operations. Each of these business areas is integrated at the appropriate
places in the ITSM core processes to provide substantial input towards the
ITSM core products. The ITSM continuous integrated processes and the
ITSM framework represent the total workings of the Department.

     ITSM Enterprise Portfolio

      The enterprise portfolio, as discussed in Finding 1, is one of the main
products of the Department and inventories the Department’s IT assets.
The portfolio will be made up of investments, also referred to as projects,
programs, systems, and architecture capabilities. It is the enterprise
portfolio that will serve as the base data for the Department to integrate
information among mid-level management and senior-level decision support.

     ITSM Performance Measurements

      Performance measures are used to determine if strategic objectives
are being met at the investment level. Performance measures consist of
goals and metrics used to determine if the goals are being met. The goals
are developed from the strategic objectives within the IT Strategic Plan. The
link between the strategic objective and the investment, and the goal and
metric, enables decision-makers to attribute success from an investment to
a strategic objective.




                                   - 68 -
                                     APPENDIX 10
THE DOJ’S RESPONSE TO THE DRAFT REPORT




                - 69 -
- 70 -
- 71 -
- 72 -
                                                              APPENDIX 11


        OFFICE OF THE INSPECTOR GENERAL’S ANALYSIS AND
        SUMMARY OF ACTIONS NECESSARY TO CLOSE REPORT

       Pursuant to the OIG’s standard audit process, the OIG provided a draft
of this audit report to the Department of Justice on September 26, 2005, for
its review and comment. The Department’s October 20, 2005, response is
included in Appendix 10 of this final report. The Department concurred with
all seven recommendations in the audit report. Our analysis of the DOJ’s
response to the seven recommendations is provided below.

Status of Recommendations

     1. Resolved. This recommendation is resolved based on the
        Department’s agreement to complete a Department-wide Enterprise
        Architecture. This recommendation can be closed when we receive
        documentation demonstrating that the Department has completed
        an organization-wide Enterprise Architecture.

     2. Resolved. This recommendation is resolved based on the
        Department’s agreement to provide guidance to components for
        the development and maintenance of Enterprise Architectures.
        This recommendation can be closed when we receive
        documentation demonstrating that the Department has issued
        guidance to its components for the development and maintenance
        of Enterprise Architectures.

     3. Resolved. This recommendation is resolved based on the
        Department’s agreement to track and review the planning,
        development, completion, and updating of component-level
        Enterprise Architectures. This recommendation can be closed when
        we receive documentation demonstrating that the Department is
        tracking and reviewing the plans, development, completion, and
        updating of component-level Enterprise Architectures.

     4. Resolved. This recommendation is resolved based on the
        Department’s agreement to fully implement the phases outlined by
        the ITSM framework to ensure that all Department IT investments
        are covered by an ITIM process. This recommendation can be
        closed when we receive documentation demonstrating that all
        Department IT investments are covered by an ITIM process.

     5. Resolved. This recommendation is resolved based on the
        Department’s agreement to ensure that its components requiring


                                   - 73 -
                                                     APPENDIX 11


   ITIM processes develop such processes. This recommendation can
   be closed when we receive documentation demonstrating that the
   Department has ensured that its components requiring ITIM
   processes have developed such processes.

6. Resolved. This recommendation is resolved based on the
   Department’s agreement to provide assistance to its components in
   developing and implementing ITIM processes and providing value-
   added services. This recommendation can be closed when we
   receive documentation demonstrating that the Department has
   provided assistance to its components in developing and
   implementing ITIM processes.

7. Resolved. This recommendation is resolved based on the
   Department’s agreement to establish a clear schedule for the
   completion of the ITSM Framework and the completion of a mature
   ITIM process. This recommendation can be closed when we
   receive documentation demonstrating that a schedule has been
   established for the completion of the ITSM Framework and the
   Department has implemented a mature ITIM process.




                            - 74 -
